No. 20-____
IN THE

Supreme Court of the United States
————
MILLIMAN, INC.,
v.

Petitioner,

JAMES J. DONELON, COMMISSIONER OF INSURANCE
FOR THE STATE OF LOUISIANA,
IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.,
Respondent.
————
On Petition for a Writ of Certiorari to the
Louisiana Supreme Court
————
PETITION FOR A WRIT OF CERTIORARI
————
SIMON A. STEEL
DENTONS US LLP
1900 K Street, NW
Washington, DC 20006
(202) 496-7077
simon.steel@dentons.com

REID L. ASHINOFF
Counsel of Record
JUSTIN N. KATTAN
ILYA SCHWARTZBURG
DENTONS US LLP
1221 Avenue of the Americas
New York, NY 10020
(212) 768-6700
reid.ashinoff@dentons.com
justin.kattan@dentons.com
ilya.schwartzburg@dentons.com

Counsel for Petitioner
September 3, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Milliman, Inc. performed pre-insolvency actuarial
services for LAHC, a Louisiana health insurer, pursuant
to a consulting agreement that requires the arbitration
of any disputes arising out of or relating to that
agreement. The Louisiana Insurance Commissioner,
acting as rehabilitator of insolvent insurer LAHC,
brought contract based damages claims in state court
against Milliman. It is undisputed that if LAHC had
brought these claims, they would have had to be
arbitrated. However, the Louisiana Supreme Court
held that the forum selection clause in the state’s insurance insolvency statute permits the Commissioner to
bring these claims in state court and to refuse to
arbitrate them.
The question presented is:
Whether the Federal Arbitration Act (the “FAA”)
preempts the state’s forum selection clause and requires
the commissioner to arbitrate these pre-insolvency
damages claims against a non-policyholder, or whether
the arbitration of these claims impairs or interferes
with the state’s regulation of the business of insurance, such that the state’s forum selection clause
reverse preempts the FAA pursuant to Section 2(b) of
the McCarran-Ferguson Act?

(i)

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner Milliman, Inc., has no parent company,
and no publicly held company holds 10% or more of its
stock.

iii
STATEMENT OF RELATED PROCEEDINGS
Proceedings involving Petitioner:
Donelon v. Shilling, No. 651069, 19th Judicial
District Court, State of Louisiana. Judgment entered
Aug. 25, 2017.
Donelon v. Shilling, No. 2017 CW 1545, Louisiana
Court of Appeal, First Circuit. Judgment entered Feb.
28, 2019.
Donelon v. Shilling, No. 2019-C-00514, Louisiana
Supreme Court. Judgment entered Apr. 27, 2020.
Other proceedings:
Donelon v. Shilling, No. 2017 CW 1483, Louisiana
Court of Appeal, First Circuit. Judgment entered Feb.
28, 2019.
Donelon v. Shilling, No. 2019-C-00515, Louisiana
Supreme Court. Judgment entered Sept. 6, 2019.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

CORPORATE DISCLOSURE STATEMENT .....

ii

STATEMENT OF RELATED PROCEEDINGS....

iii

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISIONS INVOLVED ..........

1

INTRODUCTION ................................................

2

STATEMENT OF THE CASE ............................

7

REASONS FOR GRANTING THE PETITION ....

12

I.

II.

The Louisiana Supreme Court’s Decision
Deepens The Conflict Between (1) Federal
Circuit Courts and State Supreme Courts,
and (2) Other State Supreme Courts On
The Intersection Between The McCarranFerguson Act and The FAA ......................

13

The Louisiana Supreme Court Decision
Is Incorrect ................................................

22

A. Application of The RLCA Forum
Selection Provision To The Louisiana
Commissioner’s
Claims
Against
Milliman Does Not Constitute The
State’s Regulation of The “Business
Of Insurance.” ......................................

22

(v)

vi
TABLE OF CONTENTS—Continued
Page
B. Arbitration Of The Louisiana Commissioner’s Claims Against Milliman
Would Not Impair or Interfere With
The State’s Regulation Of The Business Of Insurance ................................

24

III. The Question Presented Is An Important,
Recurring Issue Of Federal Law, And
Warrants This Court’s Review In This
Case ...........................................................

29

CONCLUSION ....................................................

32

APPENDIX
APPENDIX A: OPINION, Louisiana Supreme
Court (April 27, 2020) ....................................

1a

APPENDIX B: OPINION, Louisiana First
Circuit Court of Appeals (February 28,
2019) ...............................................................

22a

APPENDIX C: JUDGMENT, Louisiana 19th
Judicial District Court (September 15,
2017) ...............................................................

54a

APPENDIX D: TRANSCRIPT OF ORAL
OPINION, Louisiana 19th Judicial District
Court (August 25, 2017) .................................

57a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Allied-Bruce Terminix Cos., Inc. v. Dobson,
513 U.S. 265 (1995) ...................................

28

AmSouth Bank v. Dale,
386 F.3d 763 (6th Cir. 2004) ....................passim
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ............................... 7, 30, 31
Bennett v. Liberty Nat’l Fire Ins. Co.,
968 F.2d 969 (9th Cir. 1992) ........... 4, 13, 14, 27
Corcoran v. Ardra Ins. Co., Ltd.,
567 N.E.2d 969 (N.Y. 1990); .................... 20, 21
Costle v. Fremont Indem. Co.,
839 F. Supp. 265 (D. Vt. 1993) .................

16

Crysen/Montenay Energy Co. v. Shell Oil Co.
(In re Crysen/Montenay Energy Co.),
226 F.3d 160 (2d Cir. 2000) ......................

26

Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213 (1985) ....................... 14, 15, 28, 29
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) ................................. 30, 31
Donelon v. Shilling,
No. 2017 CW 1545, 2019 WL 993328
(La. App. 1 Cir. Feb. 28, 2019) ................. 1, 8, 9
Donelon v. Shilling,
No. 2019-C-00514
__ So. 3d __ (April 27, 2020) ....................passim
Donelon v. Shilling,
No. 651069
(La. 19th Jud. Dist. Ct. Aug. 25, 2017) ....

1, 8

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Ernst & Young, LLP v. Clark,
323 S.W.3d 682 (Ky. 2010) ............. 3, 19, 20, 30
Gandy v. Gandy (In re Gandy),
299 F.3d 489 (5th Cir. 2002) .....................

26

Granite Rock Co. v. Int’l Bhd. of Teamsters,
561 U.S. 287 (2010) ...................................

28

Grode v. Mutual Fire, Marine and
Inland Ins. Co.,
8 F.3d 953 (3d Cir. 1993) .........................passim
Hays & Co. v. Merrill Lynch Pierce, Fenner
& Smith, Inc.,
885 F.2d 1149 (3d Cir. 1989) ....................

26

Humana Inc. v. Forsyth,
525 U.S. 299 (1999) ...................................

24

Kindred Nursing Ctrs. Ltd. P’ship v. Clark,
137 S. Ct. 1421 (2017) ................................. 30, 31
Knickerbocker Agency, Inc. v. Holz,
149 N.E.2d 885 (N.Y. 1958) ...................... 20, 21
Koken v. Cologne Reins. (Barbados), Ltd.,
34 F. Supp. 2d 240 (M.D. Pa. 1999) .........

16

Microbilt Corp. v. Chex Sys. (In re
Microbilt Corp.),
588 F. App’x 179 (3d Cir. 2014) ................

26

Midwest Emp’rs Cas. Co. v. Legion Ins. Co.,
No. 4:07CV870 CDP, 2007 WL 3352339
(E.D. Mo. Nov. 7, 2007) .............................

16

Milliman, Inc. v. Roof,
353 F. Supp. 3d 588 (E.D. Ky. 2018) .......passim

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc.,
473 U.S. 614 (1985) ...................................

7

Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp.,
460 U.S. 1 (1983) .......................................

28

Munich Am. Reins. Co. v. Crawford,
141 F.3d 585 (5th Cir. 1998) .....................

24

Ommen v. Milliman,
941 N.W.2d 310 (Iowa 2020) ........ 11, 17, 18, 27
Quackenbush v. Allstate Ins. Co.,
121 F.3d 1372 (9th Cir. 1997) ..................passim
Riverview Health Inst. LLC v.
Med. Mut. Of Ohio,
601 F.3d 505 (6th Cir. 2010) .....................

22

S.E.C. v. Nat’l Secs., Inc.,
393 U.S. 453 (1969) ...................................

22

S.E.C. v. Variable Annuity Life Ins. Co. of Am.,
359 U.S. 65 (1959) .....................................

13

Saunders v. Farmers Ins. Exch.,
537 F.3d 961 (8th Cir. 2008) .....................

24

Shearson/Am. Exp., Inc. v. McMahon,
482 U.S. 220 (1987) ................................... 26, 27
State ex rel Richardson v. Eighth Judicial
Dist. Court in & for Cty. of Clark,
454 P.3d 1260 (Nev. 2019) ............ 11, 12, 18, 19
Stephens v. American Int’l Ins. Co.,
66 F.3d 41 (2d Cir. 1995) .......................... 24, 25

x
TABLE OF AUTHORITIES—Continued
Page(s)
Suter v. Munich Reins. Co.,
223 F.3d 150 (3d Cir. 2000) ............ 4, 13, 15, 16
Taylor v. Ernst & Young,
958 N.E.2d 1203 (Ohio 2011).................... 20, 30
Trailer Marine Transp. Corp. v. Rivera
Vazquez, 977 F.2d 1 (1st Cir. 1992)..........

13

U.S. Dep’t of Treasury v. Fabe,
508 U.S. 491 (1993) ......................... 5, 18, 22, 23
Union Labor Life Ins. Co. v. Pireno,
458 U.S. 119 (1982) ................................... 22, 23
Washburn v. Corcoran,
643 F. Supp. 554 (S.D.N.Y. 1986).............

16

CONSTITUTION
U.S. Const. art. VI, cl. 2 ...............................

3

STATUTES
28 U.S.C. § 1257(a) .......................................

1

9 U.S.C. § 2 ..................................................passim
15 U.S.C. § 1012(b) .......................................

2

Colo. Rev. Stat. Ann. § 10-3-504(5) ..............

21

Conn. Gen. Stat. Ann. § 38a-906(e) .............

21

D.C. Code Ann. § 31-1303(e) ........................

21

Ga. Code Ann. § 33-37-4(e)...........................

21

Haw. Rev. Stat. Ann. § 431:15-104(g)..........

21

Idaho Code Ann. § 41-3304(5) ......................

21

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Ind. Code Ann. § 27-9-1-3(f) .........................

21

Iowa Code Ann. § 507C.4 ............................. 17, 21
Kan. Stat. Ann. § 40-3608(e) ........................

21

Ky. Rev. Stat. Ann. § 304.33-040(3)(a) ........

21

La. Rehabilitation, Liquidation, and
Conservation Act, La. Stat. Ann.
§ 22:2004(A) .......................................... 2, 10, 27
Miss. Code Ann. § 83-24-9 ............................ 17, 21
Mo. Ann. Stat. § 375.1154(6)........................

21

Mont. Code Ann. § 33-2-1308 ....................... 14, 21
Neb. Rev. Stat. Ann. § 44-4804(5)................

21

N.J. Stat. Ann. § 17B:32-34(e) ..................... 15, 21
N.C. Gen. Stat. Ann. § 58-30-15(d) ..............

21

N.D. Cent. Code Ann. § 26.1-06.1-04(5).......

21

Ohio Rev. Code Ann. § 3903.04(E) ...............

21

40 Pa. Stat. Ann. § 221.4 .............................. 14, 21
26 P.R. Laws Ann. § 4004(5) ........................

21

27 R.I. Gen. Laws Ann. § 27-14.3-4(e) .........

21

S.C. Code Ann. § 38-27-60(f) ........................

21

S.D. Codified Laws § 58-29B-7.....................

21

Tenn. Code Ann. § 56-9-104(e) .....................

21

Tex. Ins. Code Ann. § 443.005(g) .................

21

Utah Code Ann. § 31A-27a-105(8) ...............

21

Vt. Stat. Ann. tit. 8, § 7032(e) ...................... 21, 22

xii
TABLE OF AUTHORITIES—Continued
Page(s)
22 V.I. Code Ann. § 1269(a) ......................... 21, 22
Wis. Stat. Ann. § 645.04(3) .......................... 21, 22
OTHER AUTHORITIES
COVID-19 puts insurers in tricky situation;
risks range from litigation to insolvency,
AlphaStreet (Apr. 8, 2020), https://news.
alpha-street.com/covid-19-puts-insurers-intricky-position-risks-range-from-insolven
cy-to-litigation/ ........................................... 29, 30
NAIC Receiver’s Handbook for Insurance
Company Insolvencies (2018), available
at https://www.naic.org/documents/prod_
serv_fin_receivership_rec_bu.pdf .............

29

OPINIONS BELOW
The opinion of the Louisiana Supreme Court will
be reported at — So. 3d — and is reprinted in the
Appendix (“App.”) at 1a–21a. The Louisiana First
Circuit Court of Appeals’ opinion unanimously granting
Milliman’s appeal to compel arbitration is unreported,
and is reprinted at 22a–53a. A transcript of the
Louisiana 19th Judicial District Court’s oral opinion
denying Milliman’s motion to compel arbitration is
unreported, and is reprinted at App. 57a–63a.
JURISDICTION
The Louisiana Supreme Court entered Judgment on
April 27, 2020. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1257(a).
STATUTORY PROVISIONS INVOLVED
Section 2 of the Federal Arbitration Act, 9 U.S.C.
§ 2, provides:
A written provision in any maritime transaction or a contract evidencing a transaction
involving commerce to settle by arbitration
a controversy thereafter arising out of such
contract or transaction, or the refusal to
perform the whole or any part thereof, or an
agreement in writing to submit to arbitration
an existing controversy arising out of such a
contract, transaction, or refusal, shall be
valid, irrevocable, and enforceable, save upon
such grounds as exist at law or in equity for
the revocation of any contract.

2
Section 2(b) of the McCarran-Ferguson Act, 15
U.S.C. § 1012(b), provides, in pertinent part:
No Act of Congress shall be construed to
invalidate, impair, or supersede any law
enacted by any State for the purpose of regulating the business of insurance, or which
imposes a fee or tax upon such business,
unless such Act specifically relates to the
business of insurance . . . .
Section 22:2004(A) of the Louisiana Rehabilitation,
Liquidation, and Conservation Act provides:
An action under this Chapter brought by the
commissioner of insurance, in that capacity,
or as conservator, rehabilitator, or liquidator
may be brought in the Nineteenth Judicial
District Court for the parish of East Baton
Rouge or any court where venue is proper
under any other provision of law.
INTRODUCTION
This case presents, and deepens, a recurring and
irreconcilable conflict on the question presented between
decisions of (1) two federal circuit courts and the Iowa
Supreme Court, all of which uphold the enforcement
of arbitration clauses in pre-insolvency agreements
against a state insurance commissioner acting as
liquidator/rehabilitator for an insolvent insurer, and
(2) multiple state supreme courts, including the
Louisiana Supreme Court in this case, holding that
their insurance commissioners are not required to
arbitrate claims for money damages against non-policyholders arising from such pre-insolvency agreements.
This entrenched conflict presents an important
question involving the intersection of two federal

3
statutes—the Federal Arbitration Act (the “FAA”)
and the McCarran-Ferguson Act—as applied to the
claims at issue here. The FAA is a strong federal
mandate to enforce arbitration agreements and to
preempt, pursuant to the U.S. Supremacy Clause,
state laws and state policies which are construed to
preclude the enforcement of arbitration agreements.
The McCarran-Ferguson Act creates a narrow exception where the federal statute would impair or
interfere with the state’s regulation of the “business of
insurance,” as that term is defined and applied by
federal law; courts refer to this exception as “reverse
preemption.”
The Louisiana Supreme Court held that the forum
selection clause in the Louisiana Rehabilitation,
Liquidation, and Conservation Act (the “RLCA”)
reverse preempts the FAA pursuant to the McCarranFerguson Act, and allows that state’s Insurance
Commissioner to refuse arbitration and bring his
otherwise arbitrable claims against Petitioner Milliman
Inc. (“Milliman”) in state court. (App. 19a).
The Kentucky Supreme Court reached the same
result in 2010, holding that the forum selection clause
in its state insurance insolvency statute reverse
preempts the FAA, and therefore the Kentucky Commissioner did not have to arbitrate an insolvent
insurer’s damages claims against national accounting
firm Ernst & Young. Ernst & Young, LLP v. Clark,
323 S.W.3d 682, 692 (Ky. 2010). The New York Court
of Appeals and Ohio Supreme Court have also relied
on their state insurance insolvency statute forum
selection provisions to defeat a pre-insolvency contractor’s federal arbitration rights in cases brought by
those states’ insurance commissioners, though neither
court undertook the requisite federal law analysis.

4
On the other hand, the United States Courts of
Appeals for the Third and Ninth Circuits have each
twice reached exactly the opposite result. These
courts have held that an insurance commissioner’s
damages claims that arise from an insolvent insurer’s
pre-insolvency agreements with a non-policyholder do
not implicate the state’s regulation of the “business of
insurance.” Accordingly, they have compelled state
insurance commissioners in California, Montana, New
Jersey and Pennsylvania to arbitrate pre-insolvency
damages claims, notwithstanding state insolvency statutes that, the commissioners argued, required those
claims to be litigated in state court. The Third Circuit
and Ninth Circuit have further held that requiring an
insurance commissioner to arbitrate such pre-insolvency
claims does not interfere with a state’s regulation of
the “business of insurance,” and therefore the FAA is
not reverse preempted by the McCarran-Ferguson Act.
See, e.g., Suter v. Munich Reins. Co., 223 F.3d 150, 161
(3d Cir. 2000); Bennett v. Liberty Nat’l Fire Ins. Co.,
968 F.2d 969, 972–73 (9th Cir. 1992).
The Louisiana Supreme Court decision is also in
direct conflict with three other recent decisions, by the
Iowa Supreme Court and Nevada Supreme Court, and
by a Kentucky federal district court, each involving the
same arbitration agreement, and substantively the
same contract and tort claims against Milliman as the
Louisiana Commissioner asserts here.1 Each of those
1

On Friday, August 28, Milliman received the Iowa
liquidators’ petition for certiorari seeking review of the Iowa
Supreme Court’s decision (see Doug Ommen, in His Capacity as
Liquidator of CoOportunity Health, et al., v. Milliman, Inc., et al.,
No. 20-249). That petition recognizes (in its second question
presented) that the Iowa and Louisiana Supreme Court decisions
deepen the existing conflicts concerning whether a state insurance commissioner, acting as rehabilitator or liquidator for an

5
courts compelled the state insurance commissioners,
who were acting as liquidators for insolvent insurers,
to arbitrate their pre-insolvency damages claims
against Milliman (the Nevada Supreme Court, finding
“no clear error of law” in the trial court’s decision
compelling arbitration, refused interlocutory review).
Each of these decisions also held that the bringing of
these claims by the state insurance commissioner is
not the regulation of the “business of insurance,”
and further that arbitration does not interfere with
or impair the state’s regulation of the “business of
insurance” pursuant to the McCarran-Ferguson Act.
These conflicts warrant this Court’s review. Review
is further warranted because the Louisiana Supreme
Court is on the wrong side of this conflict, as its
reasoning is inconsistent with this Court’s and federal
circuit courts’ precedents.
In U.S. Dep’t of Treasury v. Fabe, 508 U.S. 491, 508–
09 (1993) this Court reaffirmed that state statutes or
actions regulate the “business of insurance” under
the McCarran-Ferguson Act only to the extent they
“regulate policyholders.” Fabe recognized that bringing additional funds into the estate of an insolvent
insurer—which is what the Commissioner hopes
to achieve here—while it could “indirect[ly]” benefit
policyholders, does not constitute the “business of
insurance” under the McCarran-Ferguson Act.

insolvent insurer, is bound to arbitrate the insurer’s damages
claims arising out of a pre-insolvency agreement with a broad
arbitration clause. The Iowa petition also challenges and seeks
this Court’s review (first question presented) of the Iowa Supreme
Court’s construction of Iowa state contract law and provisions of
the Iowa insurance insolvency statute. Milliman will respond to
the Iowa petition at the appropriate time for filing its response.

6
Similarly, the choice of forum in which a commissioner brings pre-insolvency damages claims against
non-policyholders does not impair or interfere with the
state’s regulation of the insurer-policyholder relationship. The federal circuit court and Iowa Supreme
Court authority upholding arbitration is consistent
with this Court’s holdings regarding what constitutes
or interferes with a state’s regulation of the “business
of insurance” under the McCarran-Ferguson Act. The
Louisiana and other state supreme court decisions on
the other side of this conflict are not.
Because the core issue here—construction of the
McCarran-Ferguson Act as applied to the bringing of
these pre-insolvency damages claims—is governed by
federal law, only this Court can provide the certainty
of a uniform national answer, binding both on federal
and state courts, and on insurance commissioners and
third party contractors doing business with insurers
across the country.
Review is also warranted because of the increasing
importance of this issue. In a majority of states, the
forum selection clauses in the state insolvency statutes
are written to require (like Kentucky) or permit (like
Louisiana) state insurance commissioners to bring these
pre-insolvency damages claims in state court, thereby
avoiding pre-insolvency arbitration agreements. National
professional service firms and other interstate contractors who regularly work with insurers around the
country, e.g. accounting, consulting, and actuarial firms,
need the protection of the FAA for their bargained-for
arbitration rights, particularly where, as here, the arbitration clause does not contain an exception if the
contracting insurer become insolvent. The current pandemic and ensuing economic turmoil is again challenging
the solvency of many businesses, including insurers.

7
Such a ruling will end what will otherwise continue to
be expensive and dilatory litigation for all parties, with
contradictory rulings, as here, around the United States.
This Court should grant certiorari to correct the
Louisiana Supreme Court’s arbitration-adverse and
erroneous interpretation of the FAA and the McCarranFerguson Act, and reaffirm the “emphatic federal
policy in favor of arbitral dispute resolution.” Mitsubishi
Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473
U.S. 614, 631 (1985). Absent this Court’s ruling on
this federal law issue, state legislatures and state
courts of last resort will be able to continue to “stand
as an obstacle to the accomplishment of the FAA’s
objectives.” AT&T Mobility LLC v. Concepcion, 563
U.S. 333, 343 (2011).
STATEMENT OF THE CASE
1. This action was brought against Milliman by
the Louisiana Commissioner of Insurance, acting as
the rehabilitator of Louisiana Health Cooperative, Inc.
(“LAHC”), an insolvent health care co-operative insurer,
or “co-op,” created in 2011 and funded pursuant to
the Patient Protection and Affordable Care Act (the
“ACA”). Milliman is one of the United States’ leading
actuarial firms, headquartered in Washington State.
It provides actuarial and consulting services to insurers nationwide.
2. Pursuant to a 2011 “Consulting Services Agreement” (the “Agreement”), LAHC engaged Milliman to
provide it with “actuarial support.” (App. 27a–28a).
The Agreement contains a broad, unambiguous
arbitration clause requiring the arbitration of all
claims arising out of or relating to the Agreement:

8
Disputes: In the event of any dispute arising
out of or relating to the engagement of Milliman
by [LAHC], the parties agree that the dispute
will be resolved by final and binding arbitration under the Commercial Arbitration Rules
of the American Arbitration Association.
(App. 24a). The arbitration clause has no exception
should the insurer later become insolvent.
Milliman provided all of its actuarial services, fully
performing its obligations to LAHC pursuant to the
Agreement, from August 2011 to March 2014, prior
to LAHC’s insolvency. At or around the same time,
Milliman provided similar services in other states to
numerous other ACA co-ops under agreements with
materially indistinguishable terms, including the
same arbitration provision.
3. In 2015, LAHC became insolvent and was placed
into rehabilitation. In November 2016, the Louisiana
Insurance Commissioner, acting as Rehabilitator,
filed an amended petition in Louisiana’s 19th Judicial
District Court (the “19th JDC”) against several third
party contractors who performed pre-insolvency work
for LAHC, as well as LAHC’s officers and directors.
The petition pled two causes of action against Milliman,
both of which arise out of and relate to Milliman’s work
under the Agreement: (1) “professional negligence and
breach of contract,” and (2) negligent misrepresentation.
(App. 4a).
4. On February 17, 2017, Milliman moved to compel
arbitration of both claims. At oral argument, the Commissioner conceded that his claims relate to and arise
out of the Agreement, and therefore would be subject
to arbitration had LAHC itself brought suit against

9
Milliman. (App. 58a–59a) (admitting that had LAHC
filed the claims at issue, it “would be a pretty straightforward case” that the Agreement’s arbitration provision applies).
Notwithstanding the Commissioner’s acknowledgment, the trial court denied Milliman’s motion, holding
that the Commissioner’s claims against Milliman
“must . . . be brought in a Louisiana state court.”
(App. 62a).
5. Milliman appealed to the Louisiana First Circuit
Court of Appeals (the “Louisiana First Circuit”), which
stayed the action against Milliman and all other
defendants pending resolution of the appeal.
On February 28, 2019, the Louisiana First Circuit
unanimously reversed the trial court’s denial of
Milliman’s motion to compel arbitration. (App. 22a).
It found that “[t]he roots of each of the Commissioner’s
claims, whether resounding in contract or tort, are
the Agreement.” (App. 45a). The court explained
that, under the governing rehabilitation order, the
Commissioner “steps into the shoes of the insurer” and
“is bound by the same constraints as is the insurer
in the normal course of business.” (App. 52a–53a).
Accordingly, the court held that the Agreement’s arbitration provision applied, and that neither Louisiana
“public policy” nor Louisiana statutes can override
Milliman’s arbitration rights. (App. 53a).
6. The Commissioner appealed to the Louisiana
Supreme Court, which unanimously reversed the
Louisiana First Circuit on April 27, 2020. The
Louisiana Supreme Court acknowledged that the
Commissioner’s action “aris[es] out of an agreement
between the cooperative and a third-party contractor”
that contains an arbitration clause. (App. 3a–4a).

10
However, it held that RLCA Section 22:2004(A)—
pursuant to which the state Insurance Commissioner
“may” bring rehabilitation proceedings in the 19th
JDC “or any court where venue is proper”—permits
the Rehabilitator “to choose where and how to litigate
an action.” (App. 8a). The court held that, “[b]y using
the permissive ‘may,’ the statute does not foreclose the
option of arbitration, if provided in a contract, but
effectively delegates the choice to the Commissioner.”
(Id.).
The court emphasized public policy arguments to
support its decision, including the “purpose and spirit
of the RLCA,” (id.), the Commissioner’s role as “a
protector of public interests,” (id.), and the “substantial public interest” in consolidating proceedings in
one forum to “promote[] the efficient and cohesive
management of the affairs of insolvent insurers.”
(App. 9a–10a). It further stated that binding the
Commissioner to a private arbitration agreement “would
clearly violate the exclusivity of the rehabilitation
scheme provided by law” and contravene Louisiana
“public policy.” (App. 12a).
The court then addressed whether the “FAA . . .
preempts Louisiana law, thus compelling arbitration,”
or whether “state law reverse preempts the FAA by
virtue of the McCarran-Ferguson Act.” (App. 13a). It
concluded that the RLCA as a whole was “enacted for
the purpose of regulating the business of insurance”
and that “Section 2004 is part of a coherent policy to
address that interest.” (App. 16a) (citations omitted).
With respect to Section 22:2004(A) specifically, the court
reasoned that it was enacted to avoid piecemeal litigation in different fora that might exacerbate litigation
costs and generate inconsistent outcomes. (App. 18a).
The court then concluded that:

11
Forcing arbitration upon the Commissioner
conflicts with the Louisiana law authorizing
him to choose which forum to proceed in as
rehabilitator. This conflict sufficiently impairs
the Commissioner’s rights under Section 2004
to trigger McCarran-Ferguson’s reverse preemption effect.
(Id.).
7. The Louisiana Supreme Court remanded the case
to the 19th JDC, the stay imposed by the Louisiana
First Circuit was lifted, and extensive and burdensome discovery is ongoing in the trial court.2
8. The Louisiana action is one of four recent cases
arising out of Milliman’s provision of virtually identical services for ACA co-ops under contracts containing
the same broad arbitration clause. In addition to
Louisiana, the state insurance commissioners of Iowa,
Kentucky and Nevada, acting as liquidator of their
states’ respective insolvent ACA co-ops, sued Milliman
in state court on claims within the scope of the
arbitration clause. In all four cases, Milliman moved
to compel arbitration pursuant to section 2 of the FAA.
In the three cases other than Louisiana, the courts
compelled the state insurance commissioners to arbitrate, rejecting the commissioners’ arguments that
state insurance insolvency statutes reverse preempt
the FAA under the McCarran-Ferguson Act. See Ommen
v. Milliman, 941 N.W.2d 310 (Iowa 2020); State ex rel
Richardson v. Eighth Judicial Dist. Court in & for Cty.

2

The Louisiana Supreme Court denied Milliman’s motion for
a stay pending resolution of this Petition for Certiorari. Milliman
is applying to this Court for a stay.

12
of Clark, 454 P.3d 1260 (Nev. 2019); Milliman, Inc. v.
Roof, 353 F. Supp. 3d 588 (E.D. Ky. 2018).
REASONS FOR GRANTING THE PETITION
This case presents an entrenched conflict between
two federal circuit courts and the Iowa Supreme
Court, on the one hand, and two state supreme courts
(including the Louisiana Supreme Court in this case),
on the other hand, on the important and recurring
question here: Whether an insurance commissioner’s
pre-insolvency damages claims against non-policyholders constitute, and whether the arbitration of
such claims impairs or interferes with, the state’s
regulation of the “business of insurance” under the
McCarran-Ferguson Act.
The Third Circuit, Ninth Circuit and Iowa Supreme
Court have held that such claims do not constitute,
and arbitration of such claims does not impair or
interfere with, the state’s regulation of the “business
of insurance” under the McCarran-Ferguson Act.
These courts have compelled arbitration notwithstanding state insolvency forum selection statutes
that generally seek to consolidate core insolvency
matters in a single state court. In contrast, the
Louisiana and Kentucky Supreme Courts have nullified
an insurance commissioner’s obligation to arbitrate
such claims, holding that state insolvency forum
selection statutes reverse preempt the FAA by virtue
of the McCarran-Ferguson Act. (The Ohio Supreme
Court and New York Court of Appeals have held that
their state insurance commissioners need not arbitrate these claims, without reference to or analysis of
federal law.)

13
I. The Louisiana Supreme Court’s Decision
Deepens The Conflict Between (1) Federal
Circuit Courts and State Supreme Courts,
and (2) Other State Supreme Courts On
The Intersection Between the McCarranFerguson Act and the FAA.
Federal law—not state law—governs the question of
what activities either constitute, or “invalidate, impair
or supersede” the state’s regulation of, the “business of
insurance” under the McCarran-Ferguson Act. S.E.C.
v. Variable Annuity Life Ins. Co. of Am., 359 U.S. 65,
67, 69 (1959). A state’s “classification does not control
in deciding whether an activity is the ‘business of
insurance’ under the McCarran-Ferguson Act.” Trailer
Marine Transp. Corp. v. Rivera Vazquez, 977 F.2d 1,
13 (1st Cir. 1992), citing Variable Annuity Life Ins. Co.
of Am., 359 U.S. at 69.
The Louisiana Supreme Court’s ruling directly contravenes unanimous federal circuit authority holding
that an insurance commissioner’s prosecution of
damages claims against a third party that arise out of
an insolvent insurer’s pre-insolvency contract with
that third party does not implicate, and arbitration of
such claims does not impair or interfere with, the
state’s regulation of the “business of insurance” under
the McCarran-Ferguson Act. See Quackenbush v.
Allstate Ins. Co., 121 F.3d 1372, 1381–82 (9th Cir.
1997); Bennett v. Liberty Nat. Fire Ins. Co., 968 F.2d
969, 972 (9th Cir. 1992); Suter v. Munich Reins. Co.,
223 F.3d 150, 161 (3d Cir. 2000); Grode v. Mutual Fire,
Marine and Inland Ins. Co., 8 F.3d 953, 959–61
(3d Cir. 1993); see also AmSouth Bank v. Dale, 386
F.3d 763, 781, 783 (6th Cir. 2004) (“[A]n ordinary suit
against a tortfeaser by an insolvent insurance com-

14
pany” does not implicate the state’s regulation of the
business of insurance under McCarran-Ferguson).
The U.S. Court of Appeals for the Ninth Circuit has
twice held that the FAA preempts state insurance
insolvency forum selection statutes, and has compelled
arbitration by the insurance commissioner of preinsolvency, common law tort and contract claims on
behalf of an insolvent insurer. In Bennett, the court
upheld arbitration, rejecting the Montana Insurance
Commissioner’s argument that Montana’s “comprehensive insurance regulatory scheme” which includes
a forum selection statute mandating that “[a]ll actions
herein authorized shall be brought in the [state]
district court in the county in which the office of the
commissioner is located” (Mont. Code Ann. § 33-21308), reverse preempts the FAA under the McCarranFerguson Act. 968 F.2d at 973. The court explained
that “the liquidator is unable to explain why she is
entitled to an advantage that the insolvent company
whose position she now occupies did not have. Neither
does she articulate how arbitration interferes with a
valid state regulatory purpose.” Id.
Similarly, in Quackenbush, on remand from this
Court, the Ninth Circuit held that arbitration of the
liquidator’s third party common law damages claims
against a contractor did not implicate or interfere with
the “orderly liquidation” of the insolvent insurer, nor
did arbitration interfere with California’s insurance
insolvency “statutory scheme for resolving claims
against insolvent insurers.” 121 F.3d at 1381. Unlike
the Louisiana Supreme Court, the Ninth Circuit also
adhered to this Court’s instruction that a court has
“no discretion to consider public-policy arguments in
deciding whether to compel arbitration under the

15
FAA.” Id. at 1382, citing Dean Witter Reynolds, Inc. v.
Byrd, 470 U.S. 213, 218 (1985).
The U.S. Court of Appeals for the Third Circuit has
also twice addressed the question presented. In Grode,
the Third Circuit reversed the district court’s decision
to abstain and to deny the defendant’s motion to
compel arbitration of the Pennsylvania Commissioner’s
“ordinary contract action” brought on behalf of the
insolvent insurer. 8 F.3d at 961. Pennsylvania’s
insurance insolvency statute forum selection provision
required that “[a]ll actions herein authorized shall
be brought in the Commonwealth Court of the
Commonwealth of Pennsylvania.” 40 Pa. Stat. Ann.
§ 221.4. The Third Circuit held that “[a]lthough the
regulation of insolvent insurance companies is surely
an important state interest . . . . [s]imple contract
and tort actions that happen to involve an insolvent
insurance company are not matters of important state
regulatory concern or complex state interests.” Grode,
8 F.3d at 959–60. The Third Circuit rejected the
Pennsylvania Insurance Commissioner’s McCarranFerguson Act reverse preemption argument, stating
that the “action instituted by the Commissioner in this
case has nothing to do with Pennsylvania’s regulation
of insurance.” Id. at 960.
In Suter, the Third Circuit again compelled arbitration, this time rejecting the New Jersey Insurance
Commissioner’s argument that “arbitration of this
controversy . . . will impair New Jersey’s Liquidation
Act,” 223 F.3d at 161, including the Act’s provision
that “[a]ll actions authorized pursuant to this section
shall be brought in the Superior Court.” N.J. Stat.
Ann. §§ 17B:32–34(e). The Third Circuit concluded
that “[t]his is not a delinquency proceeding or a
proceeding similar to one. Nor is it a suit by a party

16
seeking access to assets of the insurer’s estate . . . .
What this proceeding is is a suit instituted by the
Liquidator against a reinsurer to enforce contract
rights for an insolvent insurer, which, if meritorious,
will benefit the insurer’s estate. Accordingly, we fail
to perceive any potential for interference with the
Liquidation Act proceedings before the Superior
Court.” 223 F.3d at 161. The Third Circuit also held
that seeking to increase an insolvent insurer’s assets
was an insufficient connection to the “business of
insurance” to trigger reverse preemption under the
McCarran-Ferguson Act. Id. (“[T]he mere fact that
policyholders may receive less money does not impair
the operation of any provision of New Jersey’s
Liquidation Act.”).3

3

Federal district courts have also regularly held that “the
McCarran Ferguson Act does not allow reverse preemption of the
FAA when the Liquidator of an insurance company brings suit
against a third-party independent contractor for tort or breach of
contract claims.” Milliman, 353 F. Supp. 3d at 604; see also
Koken v. Cologne Reins. (Barbados), Ltd., 34 F. Supp. 2d 240, 256
(M.D. Pa. 1999) (compelling arbitration where “this action has
nothing to do with Pennsylvania’s statutory scheme for the
regulation of the business of insurance because it is not an action
against an insolvent insurer’s estate that might deprive it of
assets”); Midwest Emp’rs Cas. Co. v. Legion Ins. Co., No.
4:07CV870 CDP, 2007 WL 3352339, at *5 (E.D. Mo. Nov. 7, 2007)
(“The ultimate issue in this case is a standard contract dispute,
so the case does not involve the state’s regulation of insurance.”);
Costle v. Fremont Indem. Co., 839 F. Supp. 265, 274 (D. Vt. 1993)
(same); but see Washburn v. Corcoran, 643 F. Supp. 554, 557
(S.D.N.Y. 1986) (“Enforcement of the [FAA] to require arbitration
where it is forbidden by Article 74 [the New York Insurance Law]
and would undermine the scheme of exclusive jurisdiction
established by Article 74 in the Supreme Court would ‘invalidate,
impair or supersede’ the state statute.”).

17
The Louisiana decision also conflicts with federal
circuit precedent outside the arbitration context. For
example, in AmSouth Bank, the U.S. Court of Appeals
for the Sixth Circuit held that “an ordinary suit
against a tortfeaser by an insolvent insurance company”
neither implicates nor impairs the state’s regulation of
the business of insurance under McCarran-Ferguson.
386 F.3d at 783. The Sixth Circuit rejected the
argument that the Mississippi insolvency statute,
which required that “action[s] herein authorized shall
be brought in the Chancery Court of the First Judicial
District of Hinds County,” reverse preempted the
federal Declaratory Judgment Act. Miss. Code Ann.
§ 83-24-9. The Sixth Circuit held that where a receiver
is suing in tort or contract, its claims implicate the
business of insurance only in an attenuated fashion in
that the insolvent estate might have more assets as a
result of a successful suit. AmSouth Bank, 386 F.3d
at 783.
The Sixth Circuit also held that the state’s forum
selection provision does not implicate the state’s
regulation of the business of insurance, stating that
even where a litigation generally is “integral to” the
performance of an insurance contract, “the choice of
forum [is] not.” Id. at 781.
The Iowa Supreme Court’s recent decision compelling the Iowa Insurance Commissioner to arbitrate his
pre-insolvency tort claims against Milliman fully
accords with this uniform federal appellate precedent.
Ommen, 941 N.W.2d at 313. The Iowa Supreme Court
held that “the McCarran-Ferguson Act does not permit
reverse preemption of the FAA” with respect to the
common law claims at issue, and that arbitration of
these claims would not impede “the state process
designed to protect the interests of policyholders.” Id.

18
at 320–21. Notwithstanding the Iowa Liquidation Act
provision mandating that “[a]ll actions authorized in
this chapter shall be brought in the district court in
Polk county,” Iowa Code Ann. § 507C.4, the Iowa
Supreme Court explained that arbitration “does not
impede the liquidator’s ability to conduct an orderly
dissolution . . . . The liquidator can bring the same
claims in arbitration as it asserted in district court,
and the liquidator has identified no procedural impediments to a full recovery in arbitration.” Ommen,
941 N.W.2d at 320. The court further stated that
“[r]equiring arbitration only alters the forum in which
the liquidator may pursue his common law tort claims.
The interests and rights of policyholders under Iowa’s
statutory scheme are not altered.” Id.
Relying on Fabe, the Iowa Supreme Court also held
that, although the liquidator’s claims could indirectly
benefit policyholders by increasing the coffers of the
insolvent insurer’s estate, the “liquidator is not litigating on behalf of policyholders, and we are not persuaded
that any indirect effects on the policyholders are sufficient” to find reverse preemption under the McCarranFerguson Act. Id., citing Fabe, 508 U.S. at 508.
Similarly, in State ex rel Richardson, 454 P.3d 1260,
the Nevada Supreme Court denied the state Insurance
Commissioner’s application for interlocutory review of
a trial court order which granted Milliman’s motion to
compel arbitration. The Commissioner argued that
“enforcement of an arbitration agreement against
an insurance liquidator pursuing contract and tort
damages against third parties would thwart the insurance liquidator’s broad statutory powers and the
general policy under [state law] to concentrate creditor
claims in a single, exclusive forum.” Id. at *1. The
Nevada Supreme Court found that “at issue here is not

19
a creditor’s claim against the Co-Op; at issue is [the
Commissioner’s] breach-of-contract and tort claims
against several third parties on behalf of the Co-Op,
which happens to be in receivership.” Id. Accordingly,
the Nevada court did not find a clear error of law with
the trial court’s order. Id.
In the fourth case against Milliman involving
the same common law claims and the same broad
arbitration clause, a Kentucky federal court compelled
arbitration of the Kentucky Insurance Commissioner’s
claims against Milliman. Milliman, Inc. v. Roof, 353
F. Supp. 3d at 603. The federal district court held that
the FAA supersedes the Kentucky liquidation statute
(the “IRLL”), including its provision for “exclusive
jurisdiction” of all claims in state court. The federal
court further held that “Kentucky’s prohibition of
arbitration between insolvent insurance companies
and third-party contractors does not trump the
mandate of the Federal Arbitration Act,” and that “the
McCarran-Ferguson Act does not allow reversepreemption of the FAA when the Liquidator… brings
suit against a third party independent contractor for
tort or breach of contract claims.” Id. at 594, 604.
However, the Louisiana Supreme Court is not the
only state court of last resort to refuse to order the
state’s insurance commissioner to arbitrate these
claims. In 2010, the Kentucky Supreme Court held
that the IRLL’s forum selection provision, by virtue of
the McCarran-Ferguson Act, reverse preempts the
FAA and precludes arbitration of the commissioner’s
(acting as liquidator) common law claims brought
against a third party. Ernst & Young, LLP, 323
S.W.3d at 692. The Kentucky Supreme Court held
that “[p]ursuant to [the IRLL], the federal policy favoring arbitration is subordinated to the state’s superior

20
interest in having matters relating to the rehabilitation of an insurance company adjudicated in the
Franklin Circuit Court.” Id.
The Kentucky Supreme Court determined that the
“public policy” concerns that the state legislature
sought to address in the IRLL supersede a party’s
arbitration right under the FAA. Specifically, the
Kentucky court found that “[i]nconsistent and incompatible results are possible if the Rehabilitator’s claims
against Ernst & Young are resolved by arbitration,
while other issues pertaining to the . . . rehabilitation
are adjudicated in the Franklin Circuit Court. Piecemeal
adjudication and the potential for inconsistent verdicts
are what the General Assembly sought to avoid by the
IRLL’s strong grant of exclusive jurisdiction to the
Franklin Circuit Court.” 323 S.W.3d at 690–91.4
The Ohio Supreme Court and the New York Court
of Appeals have also held that their respective state
insurance insolvency statutes preclude their state insurance commissioners from being compelled to arbitrate
common law damages claims against a non-policyholder.
In doing so, neither court analyzed whether the FAA
preempted the state law. Rather, the Ohio Supreme
Court held that its insurance commissioner acting as
liquidator cannot be bound to an insolvent insurer’s
pre-insolvency arbitration agreement because he
stands in a “public protection” role. Taylor v. Ernst &
Young, 958 N.E.2d 1203, 1210–13 (Ohio 2011). The
4

The Kentucky federal district court in Milliman refused to
follow the Kentucky Supreme Court decision, criticizing it for “not
provid[ing] a robust analysis” of reverse preemption under the
McCarran-Ferguson Act. 353 F. Supp. 3d at 603. Thus, in
Kentucky, whether your FAA arbitration rights will be enforced
likely depends on whether you are in state or federal court. This
is the very definition of conflicting decisions.

21
New York Court of Appeals has also long held, without
addressing federal law, that the Superintendent of
Insurance cannot be compelled to arbitrate because
the New York State Insurance Law does not expressly
authorize the Superintendent to do so. Corcoran v.
Ardra Ins. Co., Ltd., 567 N.E.2d 969, 972–73 (N.Y.
1990); Knickerbocker Agency, Inc. v. Holz, 149 N.E.2d
885, 891 (N.Y. 1958).
Simply put, there is no way to square the analyses
and holdings of the U.S. Courts of Appeals for the
Third, Sixth and Ninth Circuits and the Iowa Supreme
Court, on the one hand, with the Louisiana and
Kentucky Supreme Court decisions, on the other hand,
on the questions raised by this Petition. These
decisions have fully developed the relevant arguments
on both sides of the question.
Importantly, this issue is likely to recur around the
country. The Louisiana statute at issue is not unique;
the insolvency statutes in over half of U.S. states
and territories have forum selection provisions that
are substantially similar to those of Louisiana or
Kentucky.5 No court except this one can create uni-

5

See, e.g., Colo. Rev. Stat. Ann. § 10-3-504(5); Conn. Gen. Stat.
Ann. § 38a-906(e); D.C. Code Ann. § 31-1303(e); Ga. Code Ann.
§ 33-37-4(e); Haw. Rev. Stat. Ann. § 431:15-104(g); Idaho Code
Ann. § 41-3304(5); Ind. Code Ann. § 27-9-1-3(f); Iowa Code Ann.
§ 507C.4(5); Kan. Stat. Ann. § 40-3608(e); Ky. Rev. Stat. Ann.
§ 304.33-040(3)(a); Miss. Code. Ann. § 83-24-9(5); Mo. Ann. Stat.
§ 375.1154(6); Mont. Code Ann. § 33-2-1308; Neb. Rev. Stat. Ann.
§ 44-4804(5); N.J. Stat. Ann. § 17B:32-34(e); N.C. Gen. Stat. Ann.
§ 58-30-15(d); N.D. Cent. Code Ann. § 26.1-06.1-04(5); Ohio Rev.
Code Ann. § 3903.04(E); 40 Pa. Stat. Ann. § 221.4(d); 26 P.R.
Laws Ann. § 4004(5); 27 R.I. Gen. Laws Ann. § 27-14.3-4(e); S.C.
Code Ann. § 38-27-60(f); S.D. Codified Laws § 58-29B-7; Tenn.
Code Ann. § 56-9-104(e); Tex. Ins. Code Ann. § 443.005(g); Utah

22
formity on this federal law question for businesses
across the country that contract with insurance companies. The conflict on the question presented is
substantial, continuing, and ripe for this Court’s review.
II. The Louisiana Supreme Court Decision Is
Incorrect.
A. Application of The RLCA Forum Selection Provision To The Louisiana Commissioner’s Claims Against Milliman
Does Not Constitute the State’s Regulation of The “Business Of Insurance.”
The McCarran-Ferguson Act was passed “to assure
that the activities of insurance companies in dealing
with their policyholders would remain subject to state
regulation.” S.E.C. v. Nat’l Secs., Inc., 393 U.S. 453,
459–60 (1969) (emphasis added). Accordingly, “courts
should narrowly construe the McCarran-Ferguson
Act,” Riverview Health Inst. LLC v. Med. Mut. Of Ohio,
601 F.3d 505, 513 (6th Cir. 2010), citing Nat’l Secs.,
Inc., 393 U.S. at 460, the focus of which is on “the
relationship between the insurance company and the
policyholder. Statutes aimed at protecting or regulating this relationship . . . are laws regulating the ‘business
of insurance.’” Nat’l Secs., Inc., 393 U.S. at 460.
Thus, in Fabe, this Court held that to the extent the
Ohio priority statute at issue “regulates policyholders,
[it] is a law enacted for the purpose of regulating the
business of insurance.” 508 U.S. at 508. However, to
the extent another portion of the same statute does not
regulate policyholders “it is not a law enacted for the
purpose of regulating the business of insurance.” Id.;
Code Ann. § 31A-27a-105(8); Vt. Stat. Ann. tit. 8, § 7032(e); 22
V.I. Code Ann. § 1269(a); Wis. Stat. Ann. § 645.04(3).

23
see also Union Labor Life Ins. Co. v. Pireno, 458 U.S.
119, 129 (1982) (whether a statute was enacted for the
purpose of regulating the “business of insurance”
depends on (1) “whether the practice has the effect
of transferring or spreading a policyholder’s risk,”
(2) “whether the practice is an integral part of the
policy relationship between the insurer and the insured,”
and (3) “whether the practice is limited to entities
within the insurance industry.”).
Even if the Commissioner’s suit against Milliman
could indirectly benefit policyholders by increasing the
size of LAHC’s estate, such “indirect” benefits to policyholders do not constitute the “business of insurance”
under the McCarran-Ferguson Act. Fabe, 508 U.S. at
508. “[E]very business decision made by an insurance
company has some impact on its reliability… and its
status as a reliable insurer.” Id. at 508–09 (citation
omitted). That does not make every business decision
of an insurance company part of the “business of
insurance” under the McCarran-Ferguson Act.
The RLCA’s forum selection provision, as applied to
the Commissioner’s claims against Milliman, does not
constitute the business of insurance or regulate the
insurer-policyholder relationship. “Simple contract
and tort actions that happen to involve an insolvent
insurance company are not matters of important state
regulatory concern or complex state interests,” and
therefore do not constitute the “business of insurance.”
Grode, 8 F.3d at 959–61; AmSouth Bank, 386 F.3d at
783 (“An ordinary suit against a tortfeaser by an
insolvent insurance company” does not constitute the
business of insurance under McCarran-Ferguson).

24
B. Arbitration Of The Louisiana Commissioner’s Claims Against Milliman Would
Not Impair or Interfere With The
State’s Regulation Of The Business Of
Insurance.
When assessing whether a general federal statute
“impairs” the operation of a state law, the proper
inquiry is whether the particular suit being brought
would impair state law. See Humana Inc. v. Forsyth,
525 U.S. 299, 311, 313 (1999) (analyzing effect of
McCarran-Ferguson Act on RICO suit with respect to
particular suit, rather than only general operation of
statute). See also AmSouth Bank, 386 F.3d at 783
(stating that McCarran-Ferguson “business of insurance” analysis must be “defined with respect to the
particular cause of action” at issue), citing Humana
Inc., 525 U.S. at 311, 313; Saunders v. Farmers Ins.
Exch., 537 F.3d 961, 967 (8th Cir. 2008) (in conducting
reverse preemption analysis, “our focus must be on the
precise federal claims asserted”).
The Louisiana Supreme Court ignored this on-point
federal circuit authority in holding that arbitration
of the Commissioner’s claims would interfere with
Louisiana’s regulation of the business of insurance.
Instead, it relied on Stephens v. American International
Ins. Co., 66 F.3d 41 (2d Cir. 1995) and Munich Am.
Reins. Co. v. Crawford, 141 F.3d 585 (5th Cir. 1998).
(App. 14a–16a). However, both are inapposite cases
denying arbitration of claims brought against a
liquidator, claiming some right to the assets of the
insolvent insurer’s estate. Of course, claims made
against an insolvent estate’s assets are clearly part of
the core liquidation proceeding; thus courts properly

25
have held that arbitrating such claims could threaten
the orderly liquidation of the insolvent insurer’s estate.6
There is no such danger here. This case neither
threatens nor claims an interest in LAHC assets or
property, nor will it affect any policyholder’s legal
rights or claims. The Commissioner’s action against
Milliman has no bearing on the administration, allocation or ownership of LAHC’s property or assets, which
is the province of the insolvency action. Enforcing the
Agreement’s arbitration clause therefore will not “disrupt
the orderly [rehabilitation] of” LAHC. Quackenbush,
121 F.3d at 1381; see also AmSouth Bank, 386 F.3d
at 780 (distinguishing claims by “angry creditors
attempt[ing] to sue insolvent insurance companies in
federal court to jump ahead in the queue of claims,”
from claims “where the insurance companies are themselves the natural plaintiffs”).
As the Third Circuit explained in Grode:
Insurance companies tend to issue identical
policies to a large number of people, rendering a single forum necessary to dispose
equitably of the company’s limited assets so
as to avoid a race to the courthouse. However,
such a concern is not present in this case.
This is not a suit against the insurance
company or the Insurance Commissioner, or
a claim on assets of the debtor . . . . The
insolvent insurance company . . . is the
plaintiff, not the defendant. As a result, there
is not a large number of similarly situated
6

That said, any conflict between Munich and Stephens, on the
one hand, and the Third, Sixth and Ninth Circuit precedent cited
above, on the other hand, only exacerbates the split in authority
that supports Milliman’s petition.

26
plaintiffs competing for a limited amount of
money. The insolvent insurer in liquidation
is not called upon to dissipate its funds
defending unconnected suits across the
country. Rather, the insurance company is
the only plaintiff and the defendants are not
insolvent.
8 F.3d at 960 (quotations omitted).
Although not addressing reverse preemption under
the McCarran-Ferguson Act, federal courts in the
bankruptcy context routinely make this same distinction between preference claims and other “core”
insolvency matters, on the one hand, as distinct from
contract and tort actions brought against third party
contractors by the trustee. Core insolvency proceedings and claims seeking assets of the bankrupt estate
must proceed in the bankruptcy court. On the other
hand, if the proceeding involves claims which arise
from a debtor’s pre-petition common law and contract
rights (like the claims in this case), bankruptcy courts
have “no discretion to refuse to compel arbitration.”
See, e.g., Gandy v. Gandy (In re Gandy), 299 F.3d 489,
495 (5th Cir. 2002) (stating that bankruptcy courts
have “no discretion to refuse to compel the arbitration
of matters not involving ‘core’ bankruptcy proceedings”);
Microbilt Corp. v. Chex Sys. (In re Microbilt Corp.),
588 F. App’x 179, 180 (3d Cir. 2014); Crysen/Montenay
Energy Co. v. Shell Oil Co. (In re Crysen/Montenay
Energy Co.), 226 F.3d 160, 166 (2d Cir. 2000); Hays &
Co. v. Merrill Lynch Pierce, Fenner & Smith, Inc., 885
F.2d 1149, 1155–57 (3d Cir. 1989).
The Louisiana Supreme Court also erred in holding
that the Commissioner’s choice of a state court forum
for litigation is integral to the State’s regulation of
the “business of insurance.” Arbitration does not alter

27
“substantive rights,” the scope of the relief available,
or eliminate court review of the arbitration award;
it merely regulates the choice of initial forum.
Shearson/Am. Exp., Inc. v. McMahon, 482 U.S. 220,
229-30 (1987). As the Iowa Supreme Court held in
Ommen, arbitration “does not impede the liquidator’s
ability to conduct an orderly dissolution . . . . The
liquidator can bring the same claims in arbitration
as it asserted in district court, and the liquidator
has identified no procedural impediments to a full
recovery in arbitration.” Ommen, 941 N.W.2d at 320
(“Requiring arbitration only alters the forum in which
the liquidator may pursue his common law tort claims.
The interests and rights of policyholders under Iowa’s
statutory scheme are not altered.”)
Even where litigation generally is “integral to” the
performance of an insurance contract, and thus implicates the business of insurance, “the choice of forum
[is] not.” AmSouth Bank, 386 F.3d at 781; Bennett, 968
F.2d at 972 (“Application of the FAA does not impair
the liquidator’s substantive remedy under Montana
law. Instead it simply requires the liquidator to seek
relief through arbitration.”).
Significantly, the Louisiana Supreme Court’s construction of RLCA Section 22:2004(A)—that the
statute gives the Commissioner the choice of whether
to arbitrate his claims against Milliman or litigate
them in state court (App. 7a)—effectively concedes
that arbitration would neither impair nor interfere with
the ongoing insolvency proceedings. The Louisiana
statute would not have afforded the Commissioner the
option to arbitrate if arbitration of these claims would
impair or interfere with the orderly rehabilitation of
LAHC. The Louisiana Supreme Court did not address
or explain this fundamental flaw in its reasoning.

28
Moreover, the FAA mandate to arbitrate cannot be
reverse preempted by a state statute that permits the
arbitration of these claims, except where the Commissioner decides he would rather bring these claims in
his home state court. Allied-Bruce Terminix Cos., Inc.
v. Dobson, 513 U.S. 265, 281 (1995) (“The Act makes
any such state policy unlawful, for that kind of policy
would place arbitration clauses on an unequal ‘footing,’
directly contrary to the Act’s language and Congress’
intent.”) (citation omitted).
The Louisiana Supreme Court’s improper expansion
of reverse preemption to protect purported state
“policies” also contravenes this Court’s holding that a
court cannot rely on “policy considerations” to vitiate
an otherwise valid arbitration agreement. Dean
Witter Reynolds, Inc., 470 U.S. at 217 (“[C]ourts
[should] enforce the bargain of the parties to arbitrate,
and not substitute [their] own views of economy and
efficiency”) (quotations omitted); Granite Rock Co.
v. Int’l Bhd. of Teamsters, 561 U.S. 287, 303 (2010)
(stating that the U.S. Supreme Court has never “held
that courts may use policy considerations as a substitute for party agreement” concerning arbitration). A
court has “no discretion to consider public-policy arguments in deciding whether to compel arbitration under
the FAA.” Quackenbush, 121 F.3d at 1382, citing Dean
Witter Reynolds, 470 U.S. at 218.
Moreover, this Court has rejected the specific state
“public policy” considerations underlying the Louisiana
Supreme Court’s decision as a basis to deny a party’s
right to arbitrate. The FAA “requires piecemeal resolution when necessary to give effect to an arbitration
agreement.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 20 (1983) (emphasis in original). And an arbitration clause must be enforced

29
as drafted even when arbitration would bifurcate
proceedings, potentially leading to inefficiency and
inconsistent results. Dean Witter Reynolds, 470 U.S.
at 217.
III. The Question Presented Is An Important,
Recurring Issue Of Federal Law, And
Warrants This Court’s Review In This
Case.
The question presented in this case is a recurring
one of substantial legal and practical importance, and
is the subject of an irreconcilable split, and extensive
state and lower court litigation. See NAIC Receiver’s
Handbook for Insurance Company Insolvencies (2018),
pp. 499–500 (discussing this significant split in
authority concerning arbitrability of disputes involving
insurance commissioners acting as liquidators).7 This
singular federal question under the McCarranFerguson Act—whether state insurance insolvency
forum selection provisions consolidating rehabilitation
insolvency proceedings in a single state court may
override federal statutes and contracts providing for
arbitration—is the subject of considerably more
litigation and conflict.
A definitive ruling would have great impact on
companies that regularly do business with insurers,
particularly in light of the COVID-19 pandemic.
There will likely be a wave of new insurer insolvencies
nationwide as insurers are forced to litigate over and
bear many of the costs of this pandemic, through
massive numbers and dollar amounts of health insurance, business interruption, and other coverage claims

7

Available at https://www.naic.org/documents/prod_serv_fin_
receivership_rec_bu.pdf.

30
that could not have been foreseen or accounted for in
the pricing of these products. See, e.g., COVID-19 puts
insurers in tricky situation; risks range from litigation
to insolvency, AlphaStreet (Apr. 8, 2020), https://news.alp
hastreet.com/covid-19-puts-insurers-in-tricky-position-ris
ks-range-from-insolvency-to-litigation/. And there is
every reason to expect that state insurance commissioners nationwide will react, as the Louisiana Commissioner
did in this case, by looking for out-of-state deeppockets—such as professional service firms—to sue on
behalf of the insolvent insurers, and will seek to
pursue those suits in their home state courts.
Every significant insurer contracts for the services
of (frequently national) auditors, actuaries, accountants, and other diverse professional service firms.
Professional services firms such as Milliman and
Ernst & Young (the defendant in both the Ohio and
Kentucky Supreme Court cases addressed above),
insist on broad arbitration clauses in those contracts
because arbitration is essential to limit their litigation
costs and manage their risks. It is an essential element of the bargain between insurers and professional
service firms that the professional services firm—
particularly an out-of-state firm—will not be forced to
defend itself in the insurers’ home-state courts, before
home-state judges and jurors. But under the law as it
currently stands in the state courts of Louisiana,
Kentucky, Ohio and New York, that contract will not
be honored when it is most important to do so—when
the insurer goes into insolvency.
Given that the Louisiana Supreme Court utilized
the state’s forum selection provision—which is substantively identical to forum selection provisions in
no less than 25 other states’ insolvency statutes (see
footnote 4, supra)—and the state’s broad public policy

31
rationales to vitiate an otherwise binding arbitration
agreement, the decision is clearly part of “the judicial
hostility towards arbitration that prompted the FAA[,
which] had manifested itself in ‘a great variety’ of
‘devices and formulas’ declaring arbitration against
public policy.” AT&T Mobility LLC, 563 U.S. at 342
(FAA preempts California’s judicial rule regarding the
unconscionability of class arbitration waivers in consumer contracts); see also Kindred Nursing Ctrs. Ltd.
P’ship v. Clark, 137 S. Ct. 1421 (2017) (Kentucky’s clearstatement rule, requiring explicit and complex legal
waivers before arbitration will be permitted, disfavors
arbitration agreements and therefore is preempted by
the FAA); DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463
(2015) (holding that a California statute invalidating
class arbitration waivers is preempted by the FAA).
The Court should grant certiorari because only this
Court can resolve the conflict among the courts of
appeals and state courts of last resort regarding the
application of the McCarran-Ferguson Act in this
important context. In doing so, it should also act, once
again, to prevent the FAA from being undermined by
precisely the kind of state court hostility that it was
enacted to combat.

32
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
SIMON A. STEEL
DENTONS US LLP
1900 K Street, NW
Washington, DC 20006
(202) 496-7077
simon.steel@dentons.com

REID L. ASHINOFF
Counsel of Record
JUSTIN N. KATTAN
ILYA SCHWARTZBURG
DENTONS US LLP
1221 Avenue of the Americas
New York, NY 10020
(212) 768-6700
reid.ashinoff@dentons.com
justin.kattan@dentons.com
ilya.schwartzburg@dentons.com

Counsel for Petitioner
September 3, 2020

APPENDIX

1a
APPENDIX A
SUPREME COURT OF LOUISIANA
FOR IMMEDIATE
NEWS RELEASE

NEWS RELEASE #014

FROM: CLERK OF SUPREME COURT
OF LOUISIANA
The Opinion(s) handed down on the 27th day of April,
2020 are as follows:
BY Crain, J.:
2019-C-00514 JAMES J. DONELON, COMMISSIONER OF INSURANCE FOR THE
STATE OF LOUISIANA, IN HIS
CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC. VS. TERRY S. SHILLING,
GEORGE G. CROMER, WARNER L.
THOMAS, IV, WILLIAM A. OLIVER,
CHARLES D. CALVI, PATRICK C.
POWERS, CGI TECHNOLOGIES
AND SOLUTIONS, INC., GROUP
RESOURCES
INCORPORATED,
BEAM PARTNERS, LLC, MILLIMAN,
INC., BUCK CONSULTANTS, LLC,
AND TRAVELERS CASUALTY AND
SURETY COMPANY OF AMERICA
(Parish of East Baton Rouge)
We granted this writ to determine
whether the Louisiana Commissioner
of Insurance, as rehabilitator of a
health insurance cooperative, in an
action arising out of an agreement
between the cooperative and a thirdparty contractor, is bound by an arbi-

2a
tration clause in that agreement. We
find the Commissioner not bound by
the arbitration clause.
REVERSED AND REMANDED.
Retired Judge James H. Boddie, Jr.,
appointed Justice ad hoc, sitting for
Justice Marcus R. Clark.
Weimer, J., concurs and assigns reasons.

3a
SUPREME COURT OF LOUISIANA
————
No. 2019-C-00514
————
JAMES J. DONELON, COMMISSIONER OF
INSURANCE FOR THE STATE OF LOUISIANA,
IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.
vs.
TERRY S. SHILLING, GEORGE G. CROMER, WARNER L.
THOMAS, IV, WILLIAM A. OLIVER, CHARLES D. CALVI,
PATRICK C. POWERS, CGI TECHNOLOGIES AND
SOLUTIONS, INC., GROUP RESOURCES INCORPORATED,
BEAM PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC, AND TRAVELERS CASUALTY
AND SURETY COMPANY OF AMERICA
————
April 27, 2020
————
ON WRIT OF CERTIORARI TO THE
COURT OF APPEAL, FIRST CIRCUIT,
PARISH OF EAST BATON ROUGE
————
CRAIN, J.1
We granted this writ to determine whether the
Louisiana Commissioner of Insurance, as rehabilitator of a health insurance cooperative, in an action
1

Retired Judge James Boddie, Jr., appointed Justice ad hoc,
sitting for Justice Clark.

4a
arising out of an agreement between the cooperative
and a third-party contractor, is bound by an arbitration clause in that agreement. We find the Commissioner not bound by the arbitration clause.
BACKGROUND
The facts critical to resolving this issue are not
disputed. The Louisiana Health Cooperative, Inc.
(“LAHC”), a health insurance cooperative created in
2011 pursuant to the Patient Protection and Affordable Care Act, 42 U.S.C. § 18001 et seq. (2010), entered
an agreement with Milliman, Inc. for actuarial and
other services. By July 2015, the LAHC was out of
business and allegedly insolvent.
Louisiana Insurance Commissioner James J.
Donelon (“Commissioner”), through the Deputy Commissioner of Financial Solvency, filed suit in the
Nineteenth Judicial District Court seeking a permanent order of rehabilitation relative to the LAHC. The
district court entered an order confirming the Commissioner as rehabilitator and vesting him with
authority to enforce contract performance by any
party who had contracted with the LAHC.
The Commissioner then sued multiple defendants in
the Nineteenth Judicial District Court, asserting
claims against Milliman for professional negligence,
breach of contract, and negligent misrepresentation.
According to that suit, the acts or omissions of
Milliman caused or contributed to the LAHC’s
insolvency.
Milliman responded by filing a declinatory exception
of lack of subject matter jurisdiction, arguing the
Commissioner must arbitrate his claims pursuant to
an arbitration clause in the agreement between the

5a
LAHC and Milliman. The Commissioner contended
he is not bound by the arbitration clause and, pursuant to Louisiana Revised Statutes 22:257(F), exclusive
jurisdiction for the claims against Milliman rests in
the Nineteenth Judicial District Court.3
2

The district court denied Milliman’s exception. The
court of appeal reversed, treating Milliman’s exception
as an exception of prematurity and sustaining it, thus
requiring the Commissioner to arbitrate his claims.
Donelon v. Shilling, 2017-1545 (La. 2/28/19), 2019 WL
993328 (unpublished).

2

Section 4 of the agreement provides “any dispute arising out
of or relating to the engagement of Milliman by [the LAHC] . . .
will be resolved by final and binding arbitration under the
Commercial Arbitration Rules of the American Arbitration
Association.” We note that the American Arbitration Association
administers the case, but the applicable arbitration law is the
Federal Arbitration Act (9 U.S.C. § 1 et seq.) because the FAA
applies to all arbitrations “involving [interstate] commerce.”
Allied-Bruce Terminix Cos. v. Dobson, 513 U.S. 265, 115 S.Ct.
834, 130 L.Ed.2d 753 (1995). Milliman is domiciled in Washington
and the LAHC in Louisiana; therefore, interstate commerce is
involved.
3

Louisiana Revised Statutes 22:257(F) provides:
The commissioner is specifically empowered to take
over and liquidate the affairs of any health maintenance organization experiencing financial difficulty at
such time as he deems it necessary by applying to the
Nineteenth Judicial District Court for permission to
take over and fix the conditions thereof. The Nineteenth Judicial District Court shall have exclusive
jurisdiction over any suit arising from such takeover
and liquidation. The commissioner shall be authorized
to issue appropriate regulations to implement an
orderly procedure to wind up the affairs of any financially troubled health maintenance organization.

6a
The Commissioner now makes several arguments
for reversing the court of appeal. He argues a choiceof-law provision dictates that New York law applies,
which law prohibits enforcement of arbitration agreements in contracts with insolvent insurers in either
liquidation or rehabilitation. If state law applies, the
Commissioner avers it reverse preempts the Federal
Arbitration Act pursuant to the McCarran-Ferguson
Act, 15 U.S.C. §§ 1011, et. seq. He also asserts the
Nineteenth Judicial District Court has exclusive jurisdiction, points to policy reasons to distinguish himself,
as rehabilitator, from the LAHC when enforcing the
contract, and contends the court of appeal incorrectly
applied the direct-benefits estoppel doctrine to enforce
the arbitration clause.
ANALYSIS
We must determine whether the Commissioner can
be compelled to arbitrate pursuant to an arbitration
clause in an agreement to which he is not a party.
Critical to this determination is the source of the
Commissioner’s authority to enforce the contract. To
the extent the source is statutory, private parties have
a limited ability to contractually interfere.
Louisiana Constitution Article IV, Section 11, provides, “There shall be a Department of Insurance,
headed by the commissioner of insurance. The department shall exercise such functions and the commissioner shall have powers and perform duties authorized by this constitution or provided by law.” The
drafters of the constitution chose to leave the task of
defining the powers and duties of the Commissioner to
the legislature. See Wooley v. State Farm Fire & Cas.
Ins. Co., 2004-882 (La. 1/19/05), 893 So. 2d 746, 767,
(“Ultimately, [the 1973 Constitutional Convention
delegates] voted not to designate any powers and

7a
duties in the constitution and to allow the legislature
to specify the Commissioner’s powers and duties.”)
The legislature then enacted, in Chapter 9 of the
Insurance Code, the Louisiana Rehabilitation, Liquidation, Conservation Act (“RLCA”), La. R.S. 22: 2001,
et seq., comprehensively setting forth the Commissioner’s rights and obligations relative to insolvent
insurers.
Louisiana Revised Statutes 22:20084 and 20095
generally give the Commissioner the right to enforce
the contracts of an insolvent insurer. Louisiana
Revised Statutes 22:2004(A) governs where the
Commissioner may bring an action to enforce such
4

Louisiana Revised Statutes 22:2008 provides in pertinent
part:
A. After a full hearing, which shall be held by the court
without delay, the court shall enter an order either
dismissing the petition or finding that sufficient cause
exists for rehabilitation or liquidation and directing
the commissioner of insurance to take possession of the
property, business, and affairs of such insurer and to
rehabilitate or liquidate the same as the case may be.
The commissioner of insurance shall be responsible on
his official bond for all assets coming into his possession. The commissioner of insurance and his successor
and successors in office shall be vested by operation of
law with the title to all property, contracts, and rights
of action of the insurer as of the date of the order
directing rehabilitation or liquidation.
5

Louisiana Revised Statutes 22:2009 provides in pertinent
part:
A. Upon the entry of an order directing rehabilitation,
the commissioner of insurance shall immediately proceed to conduct the business of the insurer and take
such steps towards removal of the causes and conditions which have made such proceedings necessary as
may be expedient.

8a
contracts, providing, in pertinent part: “[a]n action
under this Chapter brought by the commissioner of
insurance, in that capacity, or as conservator, rehabilitator, or liquidator may be brought in the Nineteenth
Judicial District Court for the parish of East Baton
Rouge or any court where venue is proper under any
other provision of law.”6
This suit related to the contract between the LAHC
and Milliman is “an action brought under [the RLCA]”
by “the commissioner of insurance . . .as rehabilitator.”
The plain language of Louisiana Revised Statutes
22:2004(A) grants authority for the Commissioner to
bring such an action in the Nineteenth Judicial
District Court or any court where venue is proper. The
statute permits the Commissioner to choose where
and how to litigate an action. By using the permissive
“may,” the statute does not foreclose the option of
arbitration, if provided in a contract, but effectively
delegates the choice to the Commissioner. We hold
that Louisiana Revised Statutes 22:2004(A) is an
express grant of authority for the Commissioner to
bring this suit in court, rather than arbitration.
This holding is consistent with the purpose and
spirit of the RLCA. The Commissioner is a protector of
public interests, and the legislature designed the
statutory scheme to ensure the protection of such
interests. Louisiana Revised Statutes 22:2(A)(1) provides, in pertinent part: “Insurance is an industry
6

Louisiana Revised Statutes 22:2004 is titled “Venue.” An
arbitration clause has been characterized by this court as a type
of venue selection clause. See e.g. Hodges v. Reasonover, 20120043 (La. 7/2/12), 103 So.3d 1069, 1076 (“An arbitration clause
does not inherently limit or alter either party’s substantive
rights; it simply provides for an alternative venue for the
resolution of disputes.”)

9a
affected with the public interest and it is the purpose
of this Code to regulate that industry in all its phases.
Pursuant to the authority contained in the Constitution of Louisiana, the office of the commissioner of
insurance is created. It shall be the duty of the
commissioner of insurance to administer the provisions of this Code.” The Commissioner’s role is aptly
described in LeBlanc v. Bernard, 554 So. 2d 1378, 1381
(La. App. 1 Cir. 1989), writ denied, 559 So. 2d 1357
(La. 1990):
The Commissioner of Insurance as rehabilitator or liquidator owes an overriding duty to
the people of the State of Louisiana. The
raison d’etre of his office is because the
insurance industry is “affected with the
public interest.” La. R.S. 22:2. Any duties
imposed upon that office, therefore, must be
performed with the public interest foremost
in mind. The Commissioner’s responsibilities
as rehabilitator or liquidator include, additionally, protection of the policyholders,
creditors, and the insurer itself. Republic of
Texas Savings Assoc. v. First Republic Life
Ins. Co., 417 So. 2d 1251, 1254 (La. App. 1
Cir.) writ denied, 422 So.2d 161 (La. 1982).
This court has previously held that defendant, as rehabilitator, “does not stand precisely
in the shoes of First Republic.” Id.
Also supportive of our interpretation is Louisiana
Revised Statutes 22:2004(C), which provides: “If an
action is filed in more than one venue, the court shall
consolidate all such cases into one court where venue
is proper.” Both this statutory requirement for consolidation and the Commissioner’s authority to enforce
contracts in the venue of his choice promote the

10a
efficient and cohesive management of the affairs of
insolvent insurers, which is a matter of substantial
public interest.
The Commissioner urges that Louisiana Revised
Statutes 22:257(F) vests “exclusive jurisdiction” for
this action in the Nineteenth Judicial District Court.
However, this statute applies only to the “takeover and
liquidation of a health maintenance organization.”
The subject suit arises from the rehabilitation of the
LAHC, not its liquidation.7 Nevertheless, Louisiana
Revised Statutes 22:257(F) does support our view of
the RLCA as a comprehensive statutory scheme
facilitating the Commissioner’s management of insolvent insurers. Specifically, the statute aligns with
Louisiana Revised Statutes 22:2009, which allows the
Commissioner to convert a rehabilitation proceeding
to liquidation when he deems it necessary. Thus, the
Commissioner may choose the Nineteenth Judicial
District Court to bring an action as rehabilitator, then
convert from rehabilitation to liquidation where the
Nineteenth Judicial District Court’s jurisdiction is
mandatory. Louisiana Revised Statutes 22:2004(C)’s
use of “one court” likewise facilitates the transition
between these different types of receivership.
The ability of the Commissioner to seek to enjoin
interference with rehabilitation proceedings is also
part of the statutory scheme and reinforces the Commissioner’s authority to choose a court as the forum to
proceed. Louisiana Revised Statutes 22:2006 grants
the court “jurisdiction over matters brought by . . . the
commissioner of insurance . . .to issue an injunction.”
Louisiana Revised Statutes 22:2007(D) then provides,
“The court having jurisdiction over a proceeding under
this Chapter [the RLCA] shall have the authority
to issue such orders, including injunctive relief, as

11a
appropriate, for the enforcement of this Section
[delinquency proceeding or any investigation related
to the insolvency proceeding].” An arbitrator is not
typically empowered to issue injunctive relief. Horseshoe Entm’t v. Lepinski,7 40,753 (La. App. 2 Cir.
3/8/06), 923 So. 2d 929, 936, writ denied, 2006-0792
(La. 6/2/06), 929 So. 2d 1259.
Both parties have argued extensively that the
contract controls. Particularly, they contend resolution of the arbitrability issue hinges on the parties’
contractual intent relative to an apparent conflict
between a New York choice of law provision and the
arbitration clause. However, to the extent the
agreement seeks to alter a statutory right granted to
the Commissioner, the parties’ intent is not determinative. Where the legislature, through positive law,
empowers the Commissioner to bring an action in
court, private parties cannot contract to deprive him
of that right. See La. C.C. art. 1971 (parties are free to
contract for any object that is lawful, possible, and

7

As part of a comprehensive statutory scheme relating to the
management of insolvent insurers, the legislature has purposefully distinguished between “liquidation” and “rehabilitation.”
Thus, Louisiana Revised Statutes 22:257(F) does not directly
apply to the commissioner as rehabilitator. This legislative distinction is evidenced in Louisiana Revised Statutes 22:2008
(providing for the suspension of prescription when the commissioner seeks a rehabilitation order, but interruption if he seeks
an order of liquidation); Louisiana Revised Statutes 22:2009
(providing for the commissioner of insurance to immediately
proceed to conduct the business of the insurer as rehabilitator
and also providing for the conversion from rehabilitation to
liquidation when necessary); Louisiana Revised Statutes 22:2010
(providing for the commissioner to proceed to liquidate the
property, business, and affairs of the insurer.)

12a
determined or determinable.)8 The court in Brown v.
Associated Ins. Consultants, Inc., 97-1396 (La. App. 1
Cir. 6/29/98), 714 So. 2d 939, 942 noted:
This statutory scheme for the liquidation
and/or rehabilitation of insurers is comprehensive and exclusive in scope. . . .
Moreover, any attempt. . . to enjoin the
Commissioner (through the appointed liquidator) from performing his role as liquidator
would clearly violate the exclusivity of the
rehabilitation scheme provided by law.
Because Louisiana Revised Statutes 22:2004(A) grants
the Commissioner the right to choose the forum for
his action, a private agreement depriving him of
that right, “would clearly violate the exclusivity of
the rehabilitation scheme.” Brown, 714 So.2d 942.
Consequently, the parties’ intent is not relevant and

8

See also Louisiana Smoked Prod., Inc. v. Savoie's Sausage &
Food Prod., Inc., 96-1716 (La. 7/1/97), 696 So. 2d 1373, 1380–81
(“In a free enterprise system, parties are free to contract except
for those instances where the government places restrictions for
reasons of public policy. The state may legitimately restrict the
parties’ right to contract if the proposed bargain is found to . . .
contravene some . . . matter of public policy.”) See Bernard v.
Fireside Commercial Life Ins. Co., 633 So. 2d 177, 185 (La. App.
1 Cir. 1993), (“Louisiana has enacted a statutory scheme specifically designed for insurance insolvency, which takes precedence
over general law to the extent that the general law is inconsistent
with the provisions or purpose of the comprehensive, statutory
scheme.”) By statutorily addressing insurance insolvency, general contract law is overridden to the extent it is inconsistent with
the RLCA, or the purposes behind it. Crist v. Benton Casing Serv.,
572 So. 2d 99, 102 (La. App. 1 Cir. 1990), writ denied, 573 So. 2d
1143 (La. 1991).

13a
we pretermit any analysis of the allegedly conflicting
provisions in the agreement.
Similarly, we find it unnecessary to address the
doctrine of direct benefits estoppel and its effect on the
Commissioner as a non-signatory to the agreement.9
This jurisprudentially created type of estoppel is an
equitable remedy. Courville, 218 So.3d at 148. Equitable remedies are only available in the absence of
legislation and custom. La.Civ.Code art. 4. Because
an express grant of authority exists in favor of the
Commissioner, resort to equity is unwarranted. See
Gulf Refining Co., 171 So.2d 846, 854 (1936).
Our holding that Louisiana law allows the Commissioner to decline binding arbitration does not dispose
of the issue entirely. We must now determine if the
FAA, the applicable federal arbitration law, preempts
Louisiana law, thus compelling arbitration. By operation of the Supremacy Clause in the United States
Constitution, we acknowledge the FAA preempts
inconsistent state law. 9 U.S.C. § 1, et seq.; U.S. Const.
art. VI, Clause 2. Louisiana Revised Statutes
22:2004(A) is arguably inconsistent with the FAA,
which favors arbitration. However, the Commissioner
argues state law reverse preempts the FAA by virtue
of the McCarran-Ferguson Act. McCarran-Ferguson
exempts from federal preemption state laws enacted
“for the purpose of regulating the business of insurance.” 15 U.S. § 1012. Congress has mandated that
“[t]he business of insurance, and every person engaged
9

Direct benefits estoppel prevents a non-signatory from escaping the effects of an arbitration clause when he knowingly
exploits and receives a benefit from the agreement containing the
arbitration clause. See Courville v. Allied Professionals Insurance
Co., 2016-1354 (La. App. 1 Cir. 4/12/17), 218 So.3d 144, 148, n.3,
writ denied, 2017-0783 (La. 10/27/17), 228 So.3d 1223.

14a
therein, shall be subject to the laws of . . . States which
relate to the regulation . . . of such business.” Id. at
1012(a). No federal law “shall be construed to invalidate, impair, or supersede any law enacted by any
State for the purpose of regulating the business of
insurance . . . unless such Act specifically relates to the
business of insurance.” Id. at 1012(b).
Courts have adopted a three-part test to determine
when a state law, through application of McCarranFerguson, reverse preempts federal law: (1) when the
federal statute is not specifically related to the insurance business, (2) when the state statute was enacted
to regulate insurance, and (3) when application of the
federal statute would invalidate, impair, or supersede
the state statute. Am. Bankers Ins. Co. of Fla. v.
Inman, 436 F.3d 490, 493 (5th Cir. 2006).
The FAA does not specifically relate to “the business
of insurance.” Id. Thus, the first test for reverse preemption is satisfied.
Next is whether Louisiana Revised Statutes
22:2004(A) was enacted “for the purpose of regulating
the business of insurance.” Id. The Commissioner persuasively argues Louisiana’s comprehensive statutory
scheme for handling insolvent insurers, including the
right to choose the forum for actions brought by him
as rehabilitator, serves the purpose of regulating the
business of insurance and is within the scope of
McCarran-Ferguson. See Munich Am. Reinsurance Co.
v. Crawford, 141 F.3d 585, 591 (5th Cir. 1998).
In Munich the court considered whether Oklahoma
law governing insurance company delinquency proceedings reverse preempted the FAA. Oklahoma, like
most states, enacted its insurance regulatory scheme
under the “shield provided by the McCarran-Ferguson

15a
Act.” Id., citing Harford Cas. Ins. Co. v. Corococan, 807
F.2d 38, 43 (2d Cir.1986). Oklahoma courts, as
the “primary expositors of Oklahoma law and public
policy, have expressly declared that Oklahoma’s Insurers Liquidation Act is designed to protect the public
in general, and policyholders of an insolvent insurer in
particular.” Id. at 592. The court ultimately held the
provisions of the insurance insolvency scheme were
enacted for the purpose of regulating the business
of insurance and reverse preempted the FAA, thus
exempting the Oklahoma insurance commissioner
from arbitration. 10
The Munich court relied heavily on Stephens v.
American Int’l Ins. Co., 66 F.3d 41 (2d Cir.1995), which
found an anti-arbitration provision in Kentucky’s
10

The Munich court utilized a three-part test set forth in
Union Labor Life Ins. Co. v. Pireno, 458 U.S. 119, 129, 102 S.Ct.
3002, 73 L.Ed.2d 647 (1982) to evaluate whether the Oklahoma
law regulated the business of insurance: (1) “whether the practice
in question has the effect of transferring or spreading a
policyholder’s risk;” (2) “whether the practice is an integral part
of the policy relationship between the insurer and the insured;”
and (3) “whether the practice is limited to entities within the
insurance industry.” The court in Pierno noted that no single
factor is determinative, but examination of all the factors may
lead to the conclusion that a state law regulates the “business of
insurance.” Id. The Munich court found Oklahoma’s comprehensive regulatory scheme sufficient to satisfy at least two of three
Pireno factors: “First, it is crucial to the relationship between the
insurance company and its policyholders for both parties to know
that, in the event of insolvency, the insurance company will be
liquidated in an organized fashion.” Munich, 141 F.3d 585 (1998).
Second, the court found the liquidation scheme limited, by its
nature, to entities in the insurance industry. “It does not apply to
insolvent companies generally, but only to insolvent insurance
companies.” Id. The same factors are met relative to Louisiana’s
comprehensive regulatory scheme.

16a
Insurance Rehabilitation and Liquidation Law was
enacted to regulate the business of insurance and
was not preempted by the FAA. The Stephens court
reasoned the Kentucky liquidation scheme protects
policyholders by “assuring that an insolvent insurer
will be liquidated in an orderly and predictable
manner and the anti-arbitration provision is simply
one piece of that mechanism.” Stephens, 66 F.3d at 45.
Although not binding on us, we are persuaded by
these federal court decisions. While Munich and
Stephens involved liquidation, not rehabilitation, the
distinction is immaterial when considering the overall
statutory scheme, as both are legal devices used by the
Commissioner to manage insolvent insurers. Similar
to Oklahoma and Kentucky, Louisiana’s RLCA was
enacted for the purpose of regulating the business of
insurance. Louisiana Revised Statutes 22:2004(A), is
part of the RLCA. La. R.S. 22:2001, et seq. Section
2004(A) authorizes the Commissioner to select the
forum for “all actions under [the RLCA] brought by the
commissioner . . . as rehabilitator.” Section 2008 gives
the Commissioner “title to all property, contracts, and
rights of action of the insurer.” Section 2009 mandates
that the Commissioner “proceed to conduct the business of the insurer.” This statutory scheme for rehabilitation and liquidation of insurers is comprehensive
and exclusive in scope. Brown v. Associated Ins. Consultants, Inc., 97-1396 (La. App. 1 Cir. 6/29/98), 714
So. 2d 939, 942. It balances the interests of policyholders, creditors, and claimants. LeBlanc v. Bernard,
554 So. 2d at 1383–84. It was enacted to regulate
insurance “in the public interest.” La. R.S. 22:2(A)(1).
Section 2004 is part of a coherent policy to address
that interest. Health Net, Inc. v. Wooley, 534 F.3d 487,
496 (5th Cir. 2008).

17a
Milliman argues United States Treasury Dept. v.
Fabe, 508 U.S. 491, 505, 113 S.Ct. 2202, 124 L.Ed. 2d
449 (1993) prohibits consideration of the insurance
statutory scheme as a whole when determining
whether a specific statute was enacted for the purpose
of regulating the business of insurance. We disagree.
The Fabe court considered whether a federal priority
statute was superseded by a conflicting state priority
statute, where the latter was part of a larger statutory
scheme enacted to regulate insolvent insurers. The
Fabe court observed that an individual statute can
reverse preempt federal law to the extent the specific
statute regulates policyholder interests. However, the
court found the provisions that did not directly affect
policyholder interests were not enacted for the purpose of regulating the business of insurance and, thus,
had no reverse preemptive effect. The Munich court
rejected an expansive application of the Fabe holding,
finding “the court stopped short of directing that [a
parsing of statutes] approach be taken in every case.”
Munich, 141 F.3d 592. It continued:
This uncertainty need not concern us today,
however, because if we are required to parse
[Oklahoma Insurance regulation law], the
specific provisions of the statute at issue
here —vesting exclusive original jurisdiction
of delinquency proceedings in the Oklahoma
state court and authorizing the court to enjoin
any action interfering with the delinquency
proceedings—are laws enacted clearly for the
purpose of regulating the business of insurance. These provisions give the state court the
power to decide all issues relating to disposition of an insolvent insurance company’s
assets, including whether any given property

18a
is part of the insolvent estate in the first
place.
Id.
Louisiana, like Oklahoma, adopted a comprehensive
scheme to regulate insolvent insurers, including granting the Commissioner, as rehabilitator, the authority
to choose which forum to bring an action. The policy
reasons for this grant of discretion mirror those
of Oklahoma: “the orderly adjudication of claims;” the
avoidance of “unnecessary and wasteful dissipation of
the insolvent company’s funds” that would occur if the
receiver had to litigate in different forums nationwide;
the elimination of “the risk of conflicting rulings,
piecemeal litigation of claims, and unequal treatment
of claimants.” Munich, 141 F.3d at 593. While each
of these concerns alone may not justify avoiding the
arbitration clause, collectively they support our holding that the venue selection provision in Section 2004
was enacted for the purpose of regulating the business
of insurance.
Last, reverse preemption does not apply unless
the FAA acts to “invalidate, supersede, or impair” the
RLCA, particularly the venue provision. Forcing arbitration upon the Commissioner conflicts with the
Louisiana law authorizing him to choose which forum
to proceed in as rehabilitator. This conflict sufficiently
impairs the Commissioner’s rights under Section 2004
to trigger McCarran-Ferguson’s reverse preemption
effect.

19a
CONCLUSION
For the reasons stated herein, we find the Louisiana
Rehabilitation, Liquidation, and Conservation Act,
specifically Louisiana Revised Statutes 22:2004(A),
prevents the Commissioner from being compelled to
arbitration. We reverse the judgment of the court of
appeal and remand for proceedings consistent with
this opinion.
REVERSED AND REMANDED.

20a
SUPREME COURT OF LOUISIANA
————
No. 2019-C-00514
————
JAMES J. DONELON, COMMISSIONER OF
INSURANCE FOR THE STATE OF LOUISIANA,
IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.
versus
TERRY S. SHILLING, GEORGE G. CROMER, WARNER L.
THOMAS, IV, WILLIAM A. OLIVER, CHARLES D. CALVI,
PATRICK C. POWERS, CGI TECHNOLOGIES AND
SOLUTIONS, INC., GROUP RESOURCES INCORPORATED,
BEAM PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC, AND TRAVELERS CASUALTY
AND SURETY COMPANY OF AMERICA
————
April 27, 2020
————
ON WRIT OF CERTIORARI TO THE
COURT OF APPEAL, FIRST CIRCUIT,
PARISH OF EAST BATON ROUGE
————
WEIMER, J., concurring.
The statute central to this case, La. R.S. 22:2004(A),
provides that an “action by the commissioner of
insurance, in that capacity, or as conservator, rehabilitator, or liquidator may be brought in the Nineteenth
Judicial District Court for the parish of East Baton
Rouge or any court where venue is proper under any

21a
other provision of law.” (Emphasis added.) Arbitration
is not mentioned in the statute. Accordingly, I believe
the commissioner is not statutorily authorized to elect
arbitration, but is limited to litigation, in court, as
described in La. R.S. 22:2004(A). Thus, I respectfully
concur; I join the majority opinion in all other respects.

22a
APPENDIX B
STATE OF LOUISIANA COURT OF APPEAL
FIRST CIRCUIT
————
2017 CW 1545
————
JAMES J. DONELON, COMMISSIONER OF
INSURANCE FOR THE STATE OF LOUISIANA,
IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.
versus
TERRY S. SHILLING, GEORGE G. CROMER,
WARNER L. THOMAS, IV, WILLIAM A. OLIVER,
CHARLES D. CALVI, PATRICK C. POWERS,
CGI TECHNOLOGIES AND SOLUTIONS, INC.,
GROUP RESOURCES INCORPORATED, BEAM
PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC, AND TRAVELERS CASUALTY
AND SURETY COMPANY OF AMERICA
————
Judgment Rendered: FEB 28 2019
********
On review from the Nineteenth Judicial District
Court Parish of East Baton Rouge State of Louisiana
Case No. 651,069
The Honorable Timothy E. Kelley
********

V. Thomas Clark, Jr.
Grant J. Guillot
Baton Rouge, Louisiana

23a
Attorneys for ApplicantRelator Milliman, Inc.

Harry A. Rosenberg
New Orleans, Louisiana
H. Alston Johnson
Baton Rouge, Louisiana
J.E. Cullens, Jr.
Edward J. Walters, Jr.
Darrel J. Papillion
David Abboud Thomas
Jennifer Wise Moroux
Baton Rouge, Louisiana

Attorneys for Respondent,
James J. Donelon, Commissioner of Insurance for
the State of Louisiana, in
His Capacity as Rehabilitator of Louisiana Health
Cooperative, Inc.,
Louisiana Health
Cooperative, Inc.,
Billy Bostick

********
BEFORE: HIGGINBOTHAM, HOLDRIDGE, and
PENZATO, JJ.
HOLDRIDGE, J.
In this writ application, applicant, Milliman, Inc.
(“Milliman”), challenges the ruling of the trial court,
which overruled Milliman’s Declinatory Exception
raising the objection of Lack of Subject Matter Jurisdiction.1 For the following reasons, we reverse the
ruling of the trial court and dismiss the claims of
James J. Donelon, Commissioner of Insurance for the
1

The companion case involving the Declinatory Exception
raising the objection of Improper Venue and writ application filed
by Buck Consultants, LLC, Docket No. 2017 CW 1483, is decided
by this Court under a separate ruling.

24a
State of Louisiana, through his duly appointed
Receiver, Billy Bostick, against Milliman, without
prejudice.
FACTS AND PROCEDURAL HISTORY
This matter arises from the insolvency and the
rehabilitation of Louisiana Health Cooperative, Inc.
(“LAHC”). LAHC executed a Consulting Services
Agreement (“Agreement”) with Milliman for actuarial
services. The Agreement states, in pertinent part, as
follows:
This Agreement is entered into between
[Milliman] and [LAHC] (Company) as of
August 4, 2011. Company has engaged
Milliman to perform consulting services as
described in the letter dated August 4, 2011
and attached hereto. The parties agree that
these terms and conditions will apply to
all current and subsequent engagements of
Milliman by Company unless specifically
disclaimed in writing by both parties prior to
the beginning of the engagement. In consideration for Milliman agreeing to perform
these services, Company agrees as follows.
* * *
4. DISPUTES. In the event of any dispute
arising out of or relating to the engagement of
Milliman by Company, the parties agree that
the dispute will be resolved by final and
binding arbitration under the Commercial
Arbitration Rules of the American Arbitration Association. . . .
5. CHOICE OF LAW. The construction,
interpretation, and enforcement of this Agree-

25a
ment shall be governed by the substantive
contract law of the State of New York without
regard to its conflict of laws provisions. In the
event any provision of this agreement is
unenforceable as a matter of law, the remaining provisions will stay in full force and effect.
Representatives of Milliman and LAHC signed the
Agreement on August 4, 2011, and August 15, 2011,
respectively.
A Proposal for Actuarial Services (“Engagement
Letter”) from Milliman to Beam Partners, dated
August 4, 2011, was attached to the Agreement. The
Engagement Letter outlined that Beam Partners was
working with LAHC, which is sponsored by Ochsner
Health System, to investigate the creation of a Consumer Operated and Oriented Plan (“CO-OP”) in
Louisiana. Beam Partners, on behalf of LAHC, had
asked Milliman to provide a proposal for actuarial
support of the proposed CO-OP, with initial support
including assistance with a feasibility study and
LAHC’s loan application in response to Funding
Opportunity Announcement No. 00-000-11-001, CFDA
93.545 released from the U.S. Department of Health
and Human Services on July 28, 2011. The Engagement Letter provided Milliman’s work plan as well as
timing, staffing, and professional fees.
It is alleged that LAHC became registered with the
Louisiana Secretary of State on September 12, 2011,
and applied for and received loans from the U.S.
Department of Health and Human Services, Centers
for Medicare and Medicaid Services, in 2012. However,
it is undisputed that, by July 2015, LAHC stopped
doing business.

26a
On September 21, 2015, in response to a verified
petition and testimony on behalf of Caroline Brock,
Deputy Commissioner of Financial Solvency for the
Louisiana Department of Insurance and Billy Bostick,
a Permanent Order of Rehabilitation and Injunctive
Relief (the “Rehabilitation Order”) was signed, confirming James J. Donelon, Commissioner of Insurance
for the State of Louisiana (“the Commissioner”) as
Rehabilitator of LAHC and Billy Bostick as Receiver
of LAHC. The Rehabilitation Order further states, in
pertinent part, as follows:
[T]he requirements for rehabilitation under
the provisions of La. R.S. 22:2001, et seq.,
have been met . . . LAHC shall be and hereby
is placed into rehabilitation under the direction and control of the Commissioner
* * *
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that . . . any and all persons
and entities shall be and hereby are permanently enjoined from obtaining preferences,
judgments, attachments or other like liens or
the making of any levy against LAHC, its
property and assets
* * *
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that the Rehabilitator shall
be and hereby is entitled to the right to
enforce or cancel . . . contract performance by
any party who had contracted with LAHC.
* * *
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that LAHC providers and

27a
contractors are required to abide by the terms
of their contracts with LAHC
* * *
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that the Rehabilitator and
Receiver of LAHC . . . shall be and hereby are
allowed and authorized to . . . [c]ommence and
maintain all legal actions necessary, wherever necessary, for the proper administration
of this rehabilitation proceeding
* * *
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that all contracts between
LAHC and any and all persons or entities
providing services to LAHC . . . shall remain
in full force and effect unless canceled by the
Receiver, until further order of this Court.
On August 31, 2016, the Commissioner, as Rehabilitator of LAHC, through his duly appointed
Receiver, Billy Bostick, filed a Petition for Damages
and Jury Demand, in a separate matter from the
rehabilitation proceeding, asserting claims of breach
of fiduciary duty, breach of contract, negligence, and
gross negligence against multiple defendants and
seeking damages in connection with LAHC’s failure.
Milliman was named as a defendant in the Commissioner’s First Supplemental, Amending and Restated
Petition for Damages and Request for Jury Trial filed
on November 29, 2016.
The Commissioner alleged professional negligence,
breach of contract, and negligent misrepresentation
against Milliman. The Commissioner stated that
Milliman was engaged via the Engagement Letter to

28a
provide “actuarial support” for LAHC including the
production of a feasibility report and loan application.
The Commissioner further alleged that Milliman
was engaged via a separate engagement letter dated
November 13, 2012, to develop 2014 premium rates in
Louisiana.2
As to the professional negligence and breach of
contract claims, the Commissioner alleged the
following: (1) the feasibility study was prepared using
unrealistic and unreasonable assumption sets failing
to consider the possibility of adverse enrollment and/or
medical loss ratio scenarios; (2) Milliman conditioned
its payment upon LAHC being awarded a loan,
compromising its actuarial independence and breaching its duty to LAHC; (3) Milliman’s feasibility study
and pro forma reports were unreliable, inaccurate, and
not the result of careful professional analysis; (4)
Milliman owed a duty to LAHC to exercise reasonable
care in accordance with the professional standards for
actuaries; (5) Milliman provided actuarial memorandums for 2014 rate filings utilizing unreasonable
assumptions, grossly underestimating the level of nonclaim expenses in 2014, and providing no basis for
assumptions made therein; (6) Milliman breached its
duty to LAHC by failing to discharge its duties with
reasonable care, failing to act in accordance with the
professional standards applicable to actuaries, failing
to produce an accurate and reliable feasibility study,
failing to set premium rates that were accurate
and reliable, and failing to exercise the reasonable
judgment expected of professional actuaries under like
circumstances; and (7) Milliman’s failure to exercise
2

A copy of the November 13, 2012 Engagement Letter has not
been provided to this Court and is not in evidence.

29a
reasonable care, failure to act in accordance with the
professional standards applicable to actuaries and
breach of contract were the legal causes of all or
substantially all of LAHC’s damages. The Commissioner further alleged that Milliman’s advice and
reports to LAHC negligently misrepresented the
actual funding needs and premium rates of LAHC, and
Milliman had a duty to provide accurate and up-todate information to LAHC that Milliman knew or
should have known LAHC would rely on in making its
decision concerning premium amounts.
In response to the First Supplemental, Amending
and Restated Petition for Damages, Milliman filed a
Declinatory Exception raising the objection of Lack of
Subject Matter Jurisdiction, asserting that the Commissioner’s claims against it must be arbitrated, pursuant to the arbitration provision in the Agreement.
Milliman requested that the Commissioner’s claims
against it be dismissed, with prejudice. Attached to
Milliman’s exception was a copy of the Agreement and
the Engagement Letter.
The Commissioner opposed the exception arguing,
in pertinent part, as follows: (1) the Rehabilitation,
Liquidation, Conservation Act, La. R.S. 22:2001 et seq.
(“the RLC Act”) of the Louisiana Insurance Code is
comprehensive and exclusive in scope, and La. R.S.
22:257(F) gives the Nineteenth Judicial District Court
exclusive jurisdiction of this matter; (2) arbitration
interferes with the rehabilitation proceeding in violation of the Rehabilitation Order; (3) the Commissioner
did not sign the Agreement and is not bound by the
arbitration provision; (4) Milliman does not cite or
distinguish Ohio Supreme Court’s decision in Taylor
v. Ernst & Young, L.L.P., 2011-Ohio-5262, 130 Ohio
St. 3d 411, 958 N.E.2d 1203; (5) the Commissioner

30a
does not stand precisely in the shoes of the insolvent
insurer because he acts as an officer of the State and
owes an overriding duty to the people of the State of
Louisiana; and (6) the Commissioner’s claims do not
arise from the Engagement Letter because the Commissioner is not seeking a declaration of Milliman’s
obligations under the Engagement Letter and the
Commissioner’s allegations against Milliman do not
require the court to interpret the Engagement Letter
to determine Milliman’s obligations. Attached to the
Commissioner’s opposition was a copy of the First
Supplemental, Amending and Restated Petition for
Damages and the Rehabilitation Order.
Milliman filed a reply arguing, in pertinent part, as
follows: (1) the Commissioner is vested with title to all
contracts of LAHC, pursuant to La. R.S. 22:2008(A),
and no provision of the RLC Act vests the Commissioner with greater rights than those LAHC held; (2)
La. R.S. 22:257(F), which gives the Nineteenth Judicial District Court exclusive jurisdiction over suits
arising from the takeover and liquidation of a health
maintenance organization, does not apply herein
because LAHC is not in liquidation; (3) enforcement
of the arbitration provision does not violate the
Rehabilitation Order; (4) the Commissioner is bound
to the arbitration provision, despite being a non-signatory, because the Commissioner has sued Milliman for
breach of the Agreement; (5) the Ohio Supreme Court’s
decision in Taylor is not binding on this Court and is
factually distinguishable; (6) the Commissioner stands
in the shoes of LAHC for purposes of exercising the
rights and being obligated by the restrictions of the
Agreement; and (7) the Commissioner’s claims against
Milliman arise out of the Agreement because the
Engagement Letter was incorporated into the Agreement and the claims against Milliman arise out of

31a
the contractual relationship between LAHC and
Milliman.
A hearing on the Declinatory Exception raising the
objection of Lack of Subject Matter Jurisdiction was
held on August 25, 2017. Copies of the Agreement, the
Engagement Letter and the Rehabilitation Order were
introduced into evidence at the hearing.
The trial court denied the exception. Milliman filed
a writ application, seeking supervisory review of the
trial court’s judgment that denied its Declinatory
Exception raising the objection of Lack of Subject
Matter Jurisdiction and asking that the trial court’s
judgment be reversed. We granted certiorari and
stayed the trial court proceeding.
ERROR
Milliman argues that the trial court erroneously
denied its Declinatory Exception raising the objection
of Lack of Subject Matter Jurisdiction, where the trial
court found that the Commissioner’s claims against
Milliman must be heard in the Nineteenth Judicial
District Court rather than in arbitration, in violation
of the language of the Rehabilitation Order, the
Louisiana Insurance Code, the Louisiana Binding
Arbitration Law and Federal Arbitration Act, and
controlling jurisprudence of this Court and the U.S.
Supreme Court.
STANDARD OF REVIEW
Milliman filed a Declinatory Exception raising the
objection of Lack of Subject Matter Jurisdiction,
arguing that the Commissioner’s claims should be
dismissed with prejudice because the trial court
does not have subject matter jurisdiction in light of
the arbitration provision in the Agreement. Subject

32a
matter jurisdiction is the legal power and authority of
a court to hear and determine a particular class of
actions or proceedings, based upon the object of the
demand, the amount in dispute, or the value of the
right asserted. La. Code Civ. P. art. 2. A judgment
rendered by a court which has no jurisdiction over the
subject matter of the action or proceeding is void. See
La. Code Civ. P. arts. 3 and 925(C). A trial court is
precluded from exercising jurisdiction once arbitration
has commenced. Williams v. International Offshore
Services, LLC, 2011-1240 (La. App. 1 Cir. 12/7/12), 106
So.3d 212, 217, writ denied, 2013-0259 (La. 3/8/13),
109 So.3d 367. Furthermore, subject matter jurisdiction cannot be waived or conferred by the consent
of the parties. Id. However, arbitration has not yet
commenced in this matter, and the trial court has not
yet been divested of subject matter jurisdiction.
Moreover, the arbitration provision is powerless to
waive or confer subject matter jurisdiction. Therefore,
an exception of lack of subject matter jurisdiction is
not a proper procedural vehicle to raise arbitration.
However, “[e]very pleading shall be so construed as
to do substantial justice.” La. Code Civ. P. art. 865. In
this regard, an exception is treated as what it actually
is, not as what it is entitled. Smith v. Smith, 341 So.2d
1147, 1148 (La. App. 1 Cir. 1976) (citing Jackson v.
Dickens, 236 So.2d 81, 83 (La. App. 1 Cir. 1970)). The
defense that a plaintiff is not entitled to judicial relief
because of a valid agreement to submit claims to
arbitration may be raised by the dilatory exception of
prematurity. Green v. Regions Bank, 2013-0771 (La.
App. 1 Cir. 3/19/14), 2014 WL 3555820, *2 (unpublished) (citing Cook v. AAA Worldwide Travel
Agency, 360 So.2d 839, 841 (La. 1978); O’Neal v. Total
Car Franchising Corp., 44,793 (La. App. 2 Cir.
12/16/09), 27 So.3d 317, 319). Therefore, this Court

33a
will consider Milliman’s Declinatory Exception raising
the objection of Lack of Subject Matter Jurisdiction as
a Dilatory Exception raising the objection of Prematurity, which properly raises arbitration.
Louisiana Code of Civil Procedure article 926(A)(1)
provides for the dilatory exception raising the
objection of prematurity. Such an objection is intended
to retard the progress of the action rather than defeat
it. La. Code Civ. P. art. 923. A suit is premature if it is
brought before the right to enforce the claim sued on
has accrued. La. Code Civ. P. art. 423.
Prematurity is determined by the facts existing at
the time suit is filed. Houghton v. Our Lady of the Lake
Hospital, Inc., 2003-0135 (La. App. 1 Cir. 7/16/03), 859
So.2d 103, 106 (citing Hidalgo v. Wilson Certified
Express, Inc., 94-1322 (La. App. 1 Cir. 5/14/96), 676
So.2d 114, 116; Allied Signal, Inc. v. Jackson, 96-0138
(La. App. 1 Or. 2/14/97), 691 So.2d 150, 157 n.9, writ
denied, 97-0660 (La. 4/25/97), 692 So.2d 1091).
Evidence may be introduced to support or controvert
the exception, when the grounds do not appear from
the petition. La. Code Civ. P. art. 930. The objection of
prematurity raises the issue of whether the judicial
cause of action has yet come into existence because
some prerequisite condition has not been fulfilled.
Bridges v. Smith, 2001-2166, (La. App. 1 Cir. 9/27/02),
832 So.2d 307, 310, writ denied, 2002-2951 (La.
2/14/03), 836 So.2d 121. The objection contemplates
that the action was brought prior to some procedure or
assigned time, and is usually utilized in cases where
the applicable law or contract has provided a
procedure for one aggrieved of a decision to seek relief
before resorting to judicial action. Plaisance v. Davis,
2003-0767 (La. App. 1 Cir. 11/7/03), 868 So.2d 711,
716, writ denied, 2003-3362 (La. 2/13/04), 867 So.2d

34a
699; Harris v. Metropolitan Life Insurance Co., 200934 (La. App. 1 Cir. 2/5/10), 35 So.3d 266, 274. An
exception of prematurity raising a question of law is
subject to a de novo standard of review on appeal.
Bridges v. Citimortgage, Inc., 2011-1508 (La. App. 1
Cir. 5/24/12), 2012 WL 1922457, *1, writ denied, 20121739 (La. 11/2/12), 99 So.3d 673 (citing La. Code Civ.
P. art. 926; Bridges, 832 So.2d at 310).
The facts are not in dispute with respect to this writ
application. The issue before us is whether the trial
court correctly interpreted and applied the law in
denying the exception and refusing to enforce the
arbitration provision. This is a question of law subject
to a de novo standard of review.
Appellate review of questions of law is simply a
review of whether the trial court was legally correct or
legally incorrect. Bridges, 832 So.2d at 310 (citing City
of Baker School Board v. East Baton Rouge Parish
School Board, 99-2505 (La. App. 1 Cir. 2/18/00), 754
So.2d 291, 292). On legal issues, the appellate court
gives no special weight to the findings of the trial
court, but exercises its constitutional duty to review
questions of law and renders judgment on the record.
Bridges, 832 So.2d at 310 (citing Northwest Louisiana
Production Credit Association v. State, Department of
Revenue and Taxation, 98-1995 (La. App. 1 Cir.
11/5/99), 746 So.2d 280, 282.
When the issue of failure to arbitrate is raised by the
dilatory exception raising the objection of prematurity,
the defendant pleading the exception has the burden
of showing the existence of a valid contract to arbitrate, by reason of which the judicial action is premature. Green, 2014 WL 3555820 at *2 (citing Cook, 360
So.2d at 841; O’Neal, 27 So.3d at 319). If the dilatory
exception of prematurity is sustained, the premature

35a
action shall be dismissed. Green, 2014 WL 3555820 at
*2 (citing La. Code Civ. P. art 933).
DISCUSSION
The positive law of Louisiana favors arbitration.
Aguillard v. Auction Mgmt. Corp., 2004-2804 (La.
6/29/05), 908 So.2d 1, 7 superseded by statute on other
grounds, as stated in Arkel Constructors, Inc. v.
Duplantier & Meric, Architects, L.L.C., 2006-1950 (La.
App. 1 Cir. 7/25/07), 965 So.2d 455, 458-59. Louisiana
Revised Statutes 9:4201 of the Louisiana Binding
Arbitration Law (“LBAL”), specifically states as
follows:
A provision in any written contract to settle
by arbitration a controversy thereafter arising out of the contract, or out of the refusal to
perform the whole or any part thereof, or an
agreement in writing between two or more
persons to submit to arbitration any controversy existing between them at the time of
the agreement to submit, shall be valid,
irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the
revocation of any contract.
Such favorable treatment echoes the Federal
Arbitration Act (“FAA”), 9 U.S.C. § 1, et seq. Aguillard,
908 So.2d at 7. Section 2 of the FAA provides:
A written provision in any maritime transaction or a contract evidencing a transaction
involving commerce to settle by arbitration a
controversy thereafter arising out of such
contract or transaction, or the refusal to perform the whole or any part thereof, or an
agreement in writing to submit to arbitration
an existing controversy arising out of such a

36a
contract, transaction, or refusal, shall be
valid, irrevocable, and enforceable, save upon
such grounds as exist at law or in equity for
the revocation of any contract.
The Louisiana Supreme Court in Aguillard adopted
the liberal federal policy favoring arbitration agreements, and a Louisiana presumption of arbitrability
now exists with regard to the enforceability of
arbitration agreements. See Vishal Hospitality, LLC v.
Choice Hotels International, Inc., 2004-0568 (La. App.
1 Cir. 6/28/06), 939 So.2d 414, 416, writ denied, 20062517 (La. 1/12/07), 948 So.2d 152 (citing Aguillard,
908 So.2d at 3-4). Louisiana courts look to federal law
in interpreting the LBAL, because it is virtually
identical to the FAA. Snyder v. Belmont Homes, Inc.,
2004-0445 (La. App. 1 Cir. 2/16/05), 899 So.2d 57, 60,
writ denied, 2005-1075 (La. 6/17/05), 904 So.2d 699. In
this regard, determinations regarding the viability
and scope of arbitration clauses would be the same
under either law, and is consistent with the federal
jurisprudence interpreting the FAA which may be
considered in construing the LBAL. Lafleur v. Law
Offices of Anthony G. Buzbee, P.C., 2006-0466 (La.
App. 1 Cir. 3/23/07), 960 So.2d 105, 111, called into
doubt on other grounds, as stated in Arkel Constructors, Inc., 965 So.2d at 459 (citations omitted).
Even when the scope of an arbitration clause is
fairly debatable or reasonably in doubt, the court
should decide the question of construction in favor of
arbitration. Aguillard, 908 So.2d at 18. The weight of
this presumption is heavy and arbitration should not
be denied unless it can be said with positive assurance
that an arbitration clause is not susceptible of an
interpretation that could cover the dispute at issue. Id.
Therefore, even if some legitimate doubt could be

37a
hypothesized, the Louisiana Supreme Court requires
resolution of the doubt in favor of arbitration. Id.
A two-step analysis is applied to determine whether
a party is required to arbitrate. Snyder, 899 So.2d at
61-62 (citing Fleetwood Enterprises, Inc. v. Gaskamp,
280 F.3d 1069, 1073 (5th Cir. 2002), opinion supplemented on denial of rehearing, 303 F.3d 570 (5th Cir.
2002)). The first inquiry is whether the party has
agreed to arbitrate the dispute, which contains two
questions: (1) whether there is a valid agreement to
arbitrate; and (2) whether the dispute in question falls
within the scope of that arbitration agreement. Then,
the court must determine whether legal constraints
external to the parties’ agreement foreclosed the arbitration of those claims. Fleetwood Enterprises, Inc.,
280 F.3d at 1073.
Validity of the Agreement to Arbitrate
As to whether there is a valid agreement to
arbitrate, arbitration is a matter of contract, and a
party cannot be required to arbitrate any dispute he
has not agreed so to submit. Snyder, 899 So.2d at 63
(citing Billieson v. City of New Orleans, 2002-1993 (La.
App. 4 Cir. 9/17/03), 863 So.2d 557, 561, writ denied,
2004-0563 (La. 4/23/04), 870 So.2d 303). The burden of
proof is on Milliman to establish that a valid and
enforceable arbitration agreement exists. See Lafleur,
960 So.2d at 109. If Milliman satisfies its burden of
proof establishing its right to arbitration, the burden
then shifts to the Commissioner to demonstrate that
he did not consent to arbitration or his consent was
vitiated by error, which rendered the arbitration
provision unenforceable. Id.
The policy favoring arbitration does not apply to a
determination of whether there is a valid agreement

38a
to arbitrate between the parties. Snyder, 899 So.2d at
62. Rather, ordinary state law contract principles
determine who is bound. Id. In determining whether
the parties agreed to arbitrate a certain matter, courts
apply the contract law of the particular state that
governs the agreement. Id. at 61.
In making that determination3, Louisiana’s codal
provisions concerning choice of laws provide, in part,
that the parties are free to select the law that will
govern contracts “except to the extent that law
contravenes the public policy of the state whose law
would otherwise be applicable under Article 3537.” La.
3

The trial court did not address the choice-of-law provision
contained in the Agreement. The issue was first raised via the
Commissioner’s Post-Argument Brief filed after oral argument
with this Court. (Commissioner’s Post Argument Brief, pp. 4-8).
Generally, an appellate court will not consider issues raised for
the first time on appeal. Segura v. Frank, 630 So.2d 714, 725 (La.
1994). Uniform Rules, Courts of Appeal, Rule 1-3 further articulates that “[t]he Courts of Appeal will review only issues which
were submitted to the trial court and which are contained in
specifications or assignments of error, unless the interest of
justice clearly requires otherwise.” As noted in the Official
Revision Comment (a) to La. Code Civ. P. art. 2164, “[t]he purpose
of this article [Article 2164] is to give the appellate court complete
freedom to do justice on the record irrespective of whether a
particular legal point or theory was made, argued, or passed on
by the court below.” This Court has considered a question of
conflicts or choice of laws for the first time on appeal, when the
question is necessarily invoked by the issues before it. See e.g.
Berard v. L-3 Communications Vertex Aerospace, LLC, 2009-1202
(La. App. 1 Cir. 2/12/10), 35 So.3d 334, 340, n.1, writ denied, 20100715 (La. 6/4/10), 38 So.3d 302.
Because courts apply the contract law of the particular state
governing the agreement containing the arbitration provision
when determining the validity of the arbitration provision, we
must determine what state’s law applies to the Agreement.

39a
Civ. Code art. 3540. In this regard, the Agreement
contains a choice-of-law provision which states, in
pertinent part, as follows: “The construction, interpretation, and enforcement of this Agreement shall be
governed by the substantive contract law of the State
of New York without regard to its conflict of laws
provisions.”
In order to determine if New York law should
be applied, it must first be determined whether
Louisiana law is applicable under an analysis of La.
Civ. Code art. 3537 and, if so, whether New York law
contravenes the public policy of Louisiana. Louisiana
Civil Code article 3537 provides that the issue of which
state law applies to a conventional obligation “is governed by the law of the state whose policies would be
most seriously impaired if its law were not applied to
that issue.” See also La. Civ. Code art. 3515. In making
this analysis, we must look to each state’s connection
to the parties and the transaction, as well as its
interests in the conflict, to determine which state
would bear the most serious legal, social, economic,
and other consequences if its laws were not applied to
the issues at hand. La. Civ. Code art. 3537, 1991
Revision Comments — Comment (c).
There is no record evidence as to the place of
negotiation, formation, and performance of the
Agreement. It is undisputed that LAHC is a Louisiana
corporation doing business in Louisiana. Moreover,
the object of the Agreement was to prepare a feasibility study and assist with LAHC’s loan application to
enable it to offer insurance in Louisiana. It is
undisputed that Milliman is domiciled in Washington
with its principal place of business in Washington.
Louisiana has a strong public policy favoring the
enforcement of arbitration provisions. However, the

40a
New York courts have prohibited the enforcement of
arbitration provisions in contracts with insurers when
the insurer is insolvent and is in either rehabilitation
or liquidation. See e.g. Matter of Allcity Insurance Co.,
66 A.D.2d 531, 535-38, 413 N.Y.S.2d 929, 932 (1979);
Knickerbocker Agency, Inc. v. Holz, 4 N.Y.2d 245, 25154, 149 N.E.2d 885, 889 (1958); Washburn v. Corcoran,
643 F.Supp. 554, 556-57 (S.D.N.Y. 1986). For reasons
discussed in this opinion, Louisiana contains no such
limitation. Therefore, La. Civil Code art. 3540 precludes the application of New York law herein,
because the application of New York law would reach
a different result than that reached by the application
of Louisiana law.
Applying Louisiana law, arbitration agreements
and provisions are to be enforced unless they are
invalid under principles of Louisiana state law that
govern all contracts. Lafleur, 960 So.2d at 112. Applicable contract defenses such as fraud, duress, or
unconscionability, may be applied to invalidate
arbitration agreements. Id. One of the conditions of a
valid contract is the consent of both parties. Id. (citing
La. Civ. Code art. 1927).
The parties do not dispute that the underlying
arbitration agreement, as between LAHC and
Milliman is valid. Representatives of both LAHC and
Milliman signed the Agreement. It is well-settled that
a party who signs a written instrument is presumed to
know its contents. Aguillard, 908 So.2d at 17.
However, the Commissioner did not sign the Agreement and argues that he is not bound to the arbitration provision contained therein. Milliman responded
that the Commissioner has asserted claims against it
based on Milliman’s alleged breach of the Agreement,

41a
yet impermissibly seeks to avoid the arbitration provision in that same Agreement.
A non-signatory to a contract containing an arbitration provision may be bound by that provision under
accepted theories of agency or contract law. Courville
v. Allied Professionals Insurance Co., 2016-1354 (La.
App. 1 Cir. 4/12/17), 218 So.3d 144, 148, n.3, writ
denied, 2017-0783 (La. 10/27/17), 228 So.3d 1223
(internal citations omitted). When a signatory to a
contract requiring arbitration seeks to compel a nonsignatory to arbitrate a dispute, as in the present case,
the signatory is required to establish that the nonsignatory derived a direct benefit from the contract.
Id. Direct-benefit estoppel applies when a nonsignatory plaintiff sues to enforce a contract containing an arbitration provision yet seeks to avoid an
arbitration provision. Id. The non-signatory cannot
have it both ways; he cannot rely on the contract when
it works to his advantage and then repudiate the
contract when it works to his disadvantage. Id. On the
other hand, when the non-signatory’s claims are not
associated with the enforcement of the contract containing the arbitration provision, the non-signatory is
not bound to arbitrate those claims. Id.
The Commissioner has brought breach of contract,
professional negligence, and negligent misrepresentation claims against Milliman based on Milliman’s
allegedly deficient performance under the Agreement.
The Commissioner’s breach of contract claims against
Milliman seek to enforce the Agreement containing
the arbitration provision. Furthermore, claims for negligence and negligent performance arising from work
performed pursuant to a contract may be contractual
in nature and subject to the arbitration provision in
the contract. See e.g. Green, 2014 WL 355820, at *5-7;

42a
Shroyer v. Foster, 2001-0385 (La. App. 1 Cir. 3/28/02),
814 So.2d 83, 89, superseded by statute on unrelated
grounds, as stated in Arkel Constructors, Inc., 965
So.2d at 458-49. Apart from the Agreement, there
would have been no performance by Milliman and no
alleged breach of professional standards and negligent
misrepresentation. As such, the Commissioner’s claims
against Milliman for professional negligence and
negligent misrepresentation, like the claim for breach
of contract, are associated with the enforcement of the
Agreement, making direct-benefit estoppel applicable.
The Commissioner, despite being a non-signatory,
cannot sue to enforce the Agreement and avoid the
arbitration provision. Accordingly, the arbitration
provision is valid.
Scope of the Arbitration Provision
Next, it must be determined whether, the Commissioner’s claims against Milliman fall within the scope
of the arbitration provision. The Commissioner argues
that his claims do not arise from the Engagement
Letter because the Commissioner is not seeking a
declaration of Milliman’s obligations thereunder and
his allegations against Milliman do not require the
court to interpret the Engagement Letter to determine
Milliman’s obligations. Milliman argues that its contractual relationship and obligations with LAHC are
embodied in the Engagement Letter, and the conduct
complained of arises out of the contractual relationship. Milliman notes that it would not have had a duty
to LAHC but for the Agreement.
In construing an arbitration agreement under the
FAA, for example, a determination of whether a
dispute falls within an arbitration clause requires the
court to characterize the clause as “broad” or “narrow.”
Snyder, 899 So.2d at 62 (citing Hornbeck Offshore

43a
(1984) Corp. v. Coastal Carriers Corp., 981 F.2d 752,
754-55 (5th Cir. 1993)). If the court finds that the
clause is broad, then any dispute between the parties
falls within the scope of the clause if it is connected
with or related to the contract. Id. A narrow clause, for
example, restricts and requires that the dispute
literally “arise out of the contract” and relate to
the parties’ performance of the contract. Id. (citing
Pennzoil Exploration & Production Co. v. Ramco
Energy Ltd., 139 F.3d 1061, 1067 (5th Cir. 1998). However, a broad arbitration clause governs disputes that
“relate to” or “are connected with” the contract.
Pennzoil Exploration & Production Co., 139 F.3d at
1067.
The arbitration provision at issue states that “[i]n
the event of any dispute arising out of or relating to
the engagement of Milliman by Company [LAHC],
parties agree that the dispute will be resolved by final
and binding arbitration ...” The term “any,” when used
in an arbitration provision, is broad. See e.g. In Re
Complaint of Hornbeck Offshore (1984) Corp., 981 F.2d
752, 755 (5th Cir. 1993) (arbitration clauses containing the “any dispute” language are of the broad type).
Moreover, other courts have found the phrase
“relating to,” in particular, to be very broad in the
context of arbitration provisions. See e.g. Prima Paint
Corp. v. Flood & Conklin Manufacturing Co., 388 U.S.
395, 406, 87 S.Ct. 1801, 1807, 18 L.Ed.2d 1270 (1967)
(agreement to arbitrate “[a]ny controversy or claim
arising out of or relating to this Agreement, or the
breach thereof” is “easily broad enough” to encompass
a claim of fraud in the inducement regarding the
contract); See also Nauru Phosphate Royalties, Inc. v.
Drago Daic Interests, Inc., 138 F.3d 160, 165 (5th Cir.

44a
1998); Hamel-Schwulst v. Country Place Mortgage,
Ltd., 406 Fed. Appx. 906, 913 (5th Cir. 2010).
Furthermore, broad arbitration provisions mandating arbitration for claims “arising from or relating to”
the contract have been found to include tort claims
such as negligent misrepresentation, negligent manufacture, and negligent repair as well as any disagreement over any rights and violations reasonably
traceable to the pertinent contract. See e.g. Rain CII
Carbon LLC v. ConocoPhillips Co., 2012-0203 (La.
App. 4 Cir. 10/24/12), 105 So.3d 757, 763, writ denied,
2012-2496 (La. 1/18/13), 107 So.3d 631 (arbitration
clause providing “[a]ny controversy or claim arising
out of or relating to this Agreement, or the breach
thereof, shall be settled by arbitration” was broad
enough to include breach of contract claims as well
as claims for negligent representation, unfair trade
practices, and indemnification); See also Vector
Electric & Controls, Inc. v. ABM Industries Inc., No.
CV31500252JWDRLB (M.D. La. Jan. 11, 2016), 2016
WL 126752 at *5; Snyder, 899 So.2d at 62 (citing Izzi
v. Mesquite Country Club, 186 Cal.App.3d 1309, 231
Cal. Rptr. 315 (1986). Therefore, we find the arbitration provision at issue herein is of the broad type.
The Commissioner specifically alleged that Milliman
was engaged, via the Engagement Letter dated
August 4, 2011, to provide “actuarial support’ for
LAHC, including production of a feasibility study and
loan application.” Furthermore, the Commissioner
alleged that Milliman was engaged, via a separate
engagement letter dated November 13, 2012, to “develop 2014 premium rates in Louisiana” for LAHC.
The remainder of the Commissioner’s allegations
attack Milliman’s actuarial work, the feasibility study,
pro forma reports, actuarial memorandums prepared

45a
for the 2014 rate filings, and advice on LAHC’s
funding needs. Each of these claims relates to LAHC’s
engagement of Milliman to provide a feasibility study,
assist with LAHC’s loan application, and develop
premium rates.4 The roots of each of the Commissioner’s claims, whether resounding in contract or tort,
are the Agreement. But for Milliman’s allegedly defective performance under the Agreement, the Commissioner would have no tort claim against Milliman.
The Commissioner further relies upon Taylor, a
decision from the Ohio Supreme Court, arguing that
the claims do not fall under the scope of the arbitration
provision, because the Commissioner is not seeking
a declaration of Milliman’s obligations under the
Agreement. In Taylor, Ernst & Young (“E & Y”),
an independent accounting firm, provided auditing
services to American Chambers Life Insurance Company (“ACLIC”). E & Y submitted an audit report to
the Ohio Department of Insurance (“ODI”). The audit
was undertaken pursuant to an engagement letter
signed by E & Y and ACLIC that contained an
arbitration clause. The Taylor decision does not provide the exact language of the arbitration provision
but states that “[t]he agreement provides that all
claims ‘related to’ the services covered in the engage4

As noted, a copy of the Engagement Letter dated November
13, 2012, is not in evidence. However, the copy of the Agreement
in evidence reflects that its “terms and conditions will apply to all
current and subsequent engagements of Milliman by [LAHC]
unless specifically disclaimed in writing by both parties prior to
the beginning of the engagement.” There is no allegation or record
evidence that either LAHC or Milliman disclaimed the terms of
the Agreement, in writing or otherwise, prior to the beginning of
the November 2012 engagement. Therefore, Milliman’s work
under the 2012 engagement would fall under the terms of the
Agreement and the arbitration provision.

46a
ment letter shall be arbitrated.” Id. at 1213, n.5. The
superintendent later filed an action to place ACLIC in
rehabilitation, and a final liquidation order was
entered based on ACLIC’s insolvency. The superintendent then filed suit against E & Y alleging that E & Y
had “negligently failed to perform its duties as the
independent certified public accountant retained to
conduct the audit of ACLIC’s December 31, 1998,
Annual Statement, thus breaching the duties owed
(i.e. the malpractice claim), and E & Y had received
preferential or fraudulent payments of more than
$25,000 (i.e. the preference claim). E & Y sought to
compel the matter to arbitration.
The Ohio Supreme Court found that the test for
whether the claims fell under the scope of the arbitration provision was not whether the superintendent’s
claims “relate to” the subject matter of the engagement letter but instead whether the liquidator, a nonsignatory, asserted claims that arise from the contract
containing the arbitration clause. Id. at 1213. In
reference to the claim for malpractice, the court found
that this claim arose from statutory duties and
certifications filed in public record by ACLIC and E
& Y and did not seek judicial interpretation of
the engagement letter. The claims could be resolved
without reference to the engagement letter and did not
arise from the engagement letter and was not
arbitrable. As to the preference claim, the court found
that preference and fraudulent-transfer claims arise
only by virtue of statute and arise only in favor of the
liquidator, and they could not as a matter of law arise
from a contract entered into by an insolvent insurer.
This Court is not bound by decisions of the Ohio
Supreme Court. Nevertheless, the Taylor decision is
distinguishable. In Taylor, the liquidator sued for

47a
breach of the auditor’s statutory duties, specifically
malpractice and preference claims, that did not
require reference to the contract or engagement letter
for determination. Moreover, the Taylor liquidator did
not sue for breach of contract. In the present case, the
Commissioner is suing for breach of contract, which
requires reference to the Agreement and the incorporated Engagement Letter. Furthermore, the Commissioner’s claims for negligence and negligent misrepresentation are not determinable by reference to any
particular statutory duty of actuaries, and the
Commissioner cites no statutory duty that Milliman
allegedly breached. As such, Taylor is distinguishable.
In the present case, each of the Commissioner’s
claims relate to Milliman’s engagement. Moreover,
even if the scope of an arbitration clause is fairly
debatable or reasonably in doubt, the court should
decide the question of construction in favor of arbitration. Aguillard, 908 So.2d at 18. Accordingly, all of the
Commissioner’s claims against Milliman fall within
the scope of the arbitration provision.
Whether the Claims Are Non-Arbitrable
Finally, it must be determined whether any statute
or legal constraint renders the matter non-arbitrable.
Both the FAA and the LBAL contain identical language that written agreements to arbitrate disputes
“shall be valid, irrevocable, and enforceable, save upon
such grounds as exist at law or in equity for the
revocation of any contract.” La. R.S. 9:4201; 9 U.S.C.
§ 2. Federal courts interpreting the FAA allow for a
determination to be made as to whether any federal
statute or policy renders the claims non-arbitrable.
Sherer v. Green Tree Servicing LLC, 548 F.3d 379, 381
(5th Cir. 2008). Utilizing federal cases to interpret the
LBAL, it must be determined whether any statute or

48a
legal constraints external to the parties’ agreement
foreclosed the arbitration of those claims. Mitsubishi
Motors Corp. v. Soler Chrysler—Plymouth, Inc., 473
U.S. 614, 628, 105 S.Ct. 3346, 3353-55, 87 L.Ed.2d 444
(1985); Sherer, 548 F.3d at 381.
In this regard, the Commissioner argues that the
RLC Act and La. R.S. 22:257(F) preclude arbitration
and venue is mandatory in the Nineteenth Judicial
District Court. Milliman argues that the Insurance
Code does not grant the Commissioner greater rights
than LAHC had, under the Agreement, and La. R.S.
22:257(F) is not applicable because LAHC is not in
“liquidation.” The RLC Act sets forth the provisions
pertaining to rehabilitation, liquidation, and conservation of insurers. La. R.S. 22:2001. La. R.S. 22:2(A)(1)
states that insurance is “an industry affected with the
public interest.” The Commissioner is charged with
the duty of administering the Insurance Code. La.
Const. art. IV, § 11; La. R.S. 22:2(A)(1). As liquidator
or rehabilitator of an insurance company, the Commissioner acts as an officer of the state to protect the
interests of the public, the policyholders, the creditors,
and the insurer. Green v. Louisiana Underwriters Ins.
Co., 571 So.2d 610, 615 (La. 1990). However, the
Commissioner’s role as such does not involve the
assertion or protection of any state interest or right.
Id. The Commissioner, in his role as liquidator or
rehabilitator, represents the insurer’s interests and
not the state’s. Id. at 615, n.10.
The statutory scheme for the liquidation and/or
rehabilitation of insurers is comprehensive and exclusive in scope. Brown v. Associated Ins. Consultants,
Inc., 97-1396 (La. App. 1 Cir. 6/29/98), 714 So.2d 939,
942. This statutory scheme takes precedence over
general law to the extent that the general law is

49a
inconsistent with the provisions or purpose of the
comprehensive, statutory scheme. Bernard v. Fireside
Commercial Life Ins. Co., 92-0237 (La. App. 1 Cir.
1993), 633 So.2d 177, 185, writ denied, 93-3170 (La.
1994), 634 So.2d 839.
Louisiana Revised Statutes 22:2004 (renumbered
from La. R.S. 22:732.3 by 2008 La. Acts, No. 415, § 1,
eff. Jan. 1, 2009) is entitled “Venue” and states as
follows:
A. An action under this Chapter brought by
the commissioner of insurance, in that
capacity, or as conservator, rehabilitator, or
liquidator may be brought in the Nineteenth
Judicial District Court for the parish of East
Baton Rouge or any court where venue is
proper under any other provision of law.
B. Any action under this Chapter may also be
brought in the parish where at least twentyfive percent of the policyholders of the insurer
reside.
C. If an action is filed in more than one
venue, the court shall consolidate all such
cases into one court where venue is proper.
When originally added by 1993 La. Acts, No. 955,
§ 1, La. R.S. 22:2004 stated as follows:
An action under this Part brought by the
commissioner of insurance, in that capacity,
or as conservator, rehabilitator, or liquidator
may be brought in the Nineteenth Judicial
District Court for the Parish of East Baton
Rouge or any court where venue is proper
under any other provision of law, at the sole

50a
option of the commissioner of insurance. See
1993 La. Acts, No. 955, § 1.
However, in 1997, the legislature amended the statute
to its current form, removing the language “at the sole
option of the commissioner of insurance” from the
statute. See 1997 La. Acts, No. 1298, § 1. Accordingly,
venue for actions brought by the Commissioner of
Insurance, pursuant to the RLC Act, is no longer at
the sole option of the Commissioner or Insurance.
LAHC is in rehabilitation, pursuant to the Rehabilitation Order designating the Commissioner as
Rehabilitator and authorizing him to commence and
maintain all legal actions necessary, wherever necessary, for the proper administration of the rehabilitation proceeding. LAHC presently is not in liquidation,
which is different than rehabilitation.5 Prematurity is
5

Louisiana Revised Statutes 22:2009 (formerly La. R.S.
22:736) sets out the duties of the Commissioner as a rehabilitator.
Dardar v. Insurance Guaranty Association, 556 So.2d 272, 274
(La. App. 1 Cir. 1990). Under this statute, the Commissioner
conducts the business of the insurer in an attempt to remove the
causes and conditions which were grounds for the rehabilitation
and may apply to the court at any time for either an order
directing liquidation, if further efforts to rehabilitate the insurer
would be futile, or for an order permitting the insurer to resume
control of the business, if the causes and conditions which made
the proceeding necessary have been removed. Id.
La. R.S. 22:2010 (formerly La. R.S. 22:737), however, deals
with the duties of the Commissioner as a liquidator. Dardar, 556
So.2d at 274. Under this statute, he may sell property of the
insurer, give notice to claimants of the insurer to present claims
and, to protect policyholders of the insurer whose contracts were
cancelled by the liquidation order, solicit a contract whereby a
solvent insurer assumes some or all liabilities of former policyholders. Id. These acts for the most part are subject to the prior
approval of the court. Id.

51a
determined by the facts existing at the time suit is
filed. Houghton, 859 So.2d at 106. As such, the exclusive venue provision of La. R.S. 22:257(F) does not
apply and does not render the matter non-arbitrable.
See also Wooley v. AmCare Health Plans of Louisiana,
Inc., 2005-2025 (La. App. 1 Cir. 10/25/06), 944 So.2d
668, 677 n.7 (in a suit by the Commissioner against
contractor of insolvent insurer, this Court noted that
there was “no mandatory Louisiana venue statute
applicable herein and . . . [La. R.S. 22:2004(A)
formerly] La. R.S. 22:732.3 [(A)] controls in
Louisiana”).
Furthermore, nothing in the Rehabilitation Order
expressly prohibits arbitration. The Rehabilitation
Order notes that the “Rehabilitator . . . shall be and
hereby are allowed and authorized to . . . [c]ommence
and maintain all legal actions necessary, wherever
necessary, for the proper administration of this
rehabilitation proceeding . . .” Moreover, contracts
such as the Agreement remain in “full force and
effect,” and “LAHC providers and contractors [such as
Milliman] are required to abide by the terms of their
contracts with LAHC . . .”
The Commissioner argues that the Rehabilitation
Order’s injunction provisions prevent arbitration.
However, the injunction provisions of the Rehabilitation Order are not applicable to bar arbitration
because Milliman is not suing LAHC, the Commissioner, or the Receiver and does not seek any property,
encumbrance, or liability from LAHC, the Commissioner, or the Receiver. Instead, Milliman is the
defendant. Moreover, the assertion of exceptions,
including those asserting an arbitration provision like
the present case, causes no interference in violation of
the Rehabilitation Order.

52a
Citing this Court’s decisions in LeBlanc v. Bernard,
554 So.2d 1378, 1381 (La. App. 1 Cir. 1989), writ
denied, 559 So.2d 1357 (La. 1990), and Republic
of Texas Savings Association v. First Republic Life
Insurance Co., 417 So.2d 1251, 1254 (La. App. 1 Cir.
1982), writ denied, 422 So.2d 161 (La. 1982), the Commissioner argues that public policy prohibits arbitration because he “owes an overriding duty to the public
of the State of Louisiana” and does not stand precisely
in the shoes of the insolvent insurer. In LeBlanc, 554
So.2d at 1379-80, this Court found that the Commissioner does not stand in the shoes of an insolvent
insurer; however, in LeBlanc, a claim was brought
against the Commissioner as a party defendant by a
plaintiff seeking to dissolve a sale and regain certain
immovable property under the control of the Commissioner in his capacity as rehabilitator of an insurance
company. Similarly, in Republic of Texas Savings
Association, 417 So.2d at 1253-54, the Commissioner
objected to a foreclosure proceeding being brought
against the insolvent insurer’s property, and this
Court found that the Commissioner did not stand in
the shoes of the insolvent insurer in that he was not
barred from raising certain defenses, although the
insurer may have been barred from asserting said
defenses.
In the present case, the Commissioner, as plaintiff,
sued Milliman. No claims are being brought against
the Commissioner, LAHC, or LAHC’s property, as
contrasted with facts of LeBlanc and Republic of Texas
Savings Association. Since the LeBlanc and Republic
of Texas decisions, this Court has found that the
Commissioner, as rehabilitator, “takes control of the
insurer, has the authority to conduct business . . . steps
into the shoes of the insurer” and “is bound by the
same constraints as is the insurer in the normal course

53a
of business.” Dardar v. Insurance Guaranty Association, 556 So.2d 272, 274 (La. App. 1 Cir. 1990).
Similarly, the Rehabilitation Order states that
“LAHC providers and contractors are required to
abide by the terms of their contracts with LAHC . . .”
Although La. R.S. 22:2009(E)(4) allows the Commissioner to “disavow any contracts to which the insurer
is a party,” it only allows disavowal of an entire contract rather than repudiating certain provisions. The
Commissioner is bound to the terms of the Agreement
including the arbitration provision, as LAHC would
have been.
This Court is bound to uphold the arbitration provision, since we have found no exception in the law
or jurisprudence that would allow for an exception to
its enforcement. In light of Louisiana’s strong public
policy favoring arbitration and consistent with the
views expressed herein, we find that the trial court
erred in overruling Milliman’s exception.
CONCLUSION
For the reasons stated, the judgment of the trial
court is reversed. The claims of the Commissioner
against Milliman are dismissed, without prejudice.
REVERSED.

54a
APPENDIX C
19TH JUDICIAL DISTRICT COURT
PARISH OF EAST BATON ROUGE
STATE OF LOUISIANA
————
Suit No.: 651,069 Section: 22
————
JAMES J. DONELON, COMMISSIONER OF
INSURANCE FOR THE STATE OF LOUISIANA,
IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.
versus
TERRY S. SHILLING, GEORGE G. CROMER,
WARNER L. THOMAS, IV, WILLIAM A. OLIVER,
CHARLES D. CALVI, PATRICK C. POWERS,
CGI TECHNOLOGIES AND SOLUTIONS, INC.,
GROUP RESOURCES INCORPORATED, BEAM
PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC. AND TRAVELERS CASUALTY
AND SURETY COMPANY OF AMERICA
————
September 15, 2017
————
JUDGMENT
A contradictory hearing regarding the following
matters:
1. DECLINATORY EXCEPTION OF LACK OF
SUBJECT MATTER JURISDICTION, filed herein
by defendant, Milliman, Inc. (“Milliman”);
2. DECLINATORY EXCEPTION OF IMPROPER
VENUE, filed herein by defendant, Buck
Consultants, LLC (“Buck”);

55a
3. PEREMPTORY EXCEPTION OF PRESCRIPTION, filed herein by defendant, Group Resources
Incorporated (“GRI”); and
4. CGI’s MOTION FOR SUMMARY JUDGEMENT,
filed herein by defendant, CGI Technologies and
Solutions, Inc. (“CGI”).
was held pursuant to applicable law on August 25,
2017, in Baton Rouge, Louisiana, before the Honorable
Timothy Kelley; present at the hearing were:
J. E. Cullens, Jr., attorney for plaintiff, James
J. Donlon, Commissioner of Insurance for the
State of Louisiana, in his capacity as Rehabilitator of Louisiana Health Cooperative,
Inc.
James A. Brown, attorney for defendant,
Buck Consultants, LLC
W. Brett Mason, attorney for defendant,
Group Resources Incorporated
V. Thomas Clark, Jr., attorney for defendant,
Milliman, Inc.
Frederick Theodore Le Clercq, attorney for
defendant, Beam Partners, LLC
Harry J. Philips, Jr., attorney for defendant,
CGI Technologies and Solutions, Inc.
Considering the evidence and exhibits admitted at this
hearing, the pleadings and memoranda filed by the
parties, applicable law, the argument of counsel, and
for the reasons stated in open court at the hearing of
this matter:
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that MILLIMAN INC.’S DECLINATORY
EXCEPTION OF LACK OF SUBJECT MATTER
JURISDICTION is DENIED.

56a
IT IS FURTHER HEREBY ORDERED, ADJUDGED,
AND DECREED that BUCK CONSULTANTS,
LLC’S DECLINATORY EXCEPTION OF IMPROPER
VENUE is DENIED.
IT IS FURTHER HEREBY ORDERED, ADJUDGED,
AND DECREED that GROUP RESOURCES INCORPORATED’S PEREMPTORY EXCEPTION OF
PRESCRIPTION is DENIED.
IT IS FURTHER HEREBY ORDERED, ADJUDGED,
AND DECREED that CGI TECHNOLOGIES AND
SOLUTIONS, INC.’S MOTION FOR SUMMARY
JUDGMENT is DENIED, WITHOUT PREJUDICE.
IT IS FURTHER HEREBY ORDERED, ADJUDGED,
AND DECREED that this Court’s previous order
staying general discovery regarding the merits of this
litigation dated April 26, 2017, is hereby LIFTED;
furthermore, it is contemplated that all parties will
timely confer and propose a CASE SCHEDULING
ORDER it is contemplated that all parties will timely
confer and propose and acceptable case scheduling
order to be adopted by this Court.
IT IS FURTHER HEREBY ORDERED, ADJUDGED,
AND DECREED that each defendant shall have 30
days from the date of the mailing of the signed
judgment to file a notice of intent to seek supervisory
writs.
SIGNED this 19 day of September, 2017, at Baton
Rouge, Louisiana.
/s/ Timothy Kelley
HON. JUDGE TIMOTHY KELLEY, 19th JDC
PLEASE PROVIDE NOTICE OF JUDGMENT
PURSUANT TO LSA–CCP ART. 1913

57a
APPENDIX D
[1] NINETEENTH JUDICIAL DISTRICT COURT
PARISH OF EAST BATON ROUGE
STATE OF LOUISIANA
CIVIL SECTION 22
————
No. 651069
————
JAMES J. DONELON
v.
TERRY S. SHILLING, et al.
————
FRIDAY, AUGUST 25, 2017
————
HEARING AND ORAL REASONS
FOR JUDGMENT ON (1) DECLINATORY
EXCEPTION OF LACK OF SUBJECT
MATTER JURISDICTION FILED ON
BEHALF OF MILLIMAN, INC.,
(2) DECLINATORY EXCEPTION OF
IMPROPER VENUE FILED ON BEHALF
OF BUCK CONSULTANTS, LLC, (3)
EXCEPTION OF PREMATURITY, OR
IN THE ALTERNATIVE, MOTION TO
STAY PROCEEDINGS FILED ON BEHALF
OF BEAM PARTNERS, LLC, AND (4)
PEREMPTORY EXCEPTION OF
PRESCRIPTION FILED ON BEHALF
OF GROUP RESOURCES, INC.
————

58a
THE HONORABLE TIMOTHY KELLEY,
JUDGE PRESIDING
APPEARANCES
J CULLENS,JR & JENNIFER MOROUX
JAMES BROWN
SKIP PHILIPS & RYAN FRENCH
W. MASON
V. CLARK, JR. & GRANT GUILLOT
RICHARD BAUDOUIN
FOR
PLAINTIFFS
BUCK CONSLTNS CGI TECHNOLOGY &
SOLUTIONS GROUP RESOURCES MILLIMAN,
INC. TRAVELER’S CAS. SURITY CO
REPORTED AND TRANSCRIBED BY KRISTINE
M. FERACHI, CCR #87173
* * *
[30] IN THE WEEK. SO, I JUST WANTED TO
CORRECT THAT STATEMENT. GO AHEAD.
MR. CULLENS: EVERY STATE, AND THAT -INSURANCE IS PROBABLY ONE OF THE MOST
IMPORTANT STATE INTERESTS THAT THEY
HAVE, AND EACH STATE DOES THINGS A
LITTLE BIT DIFFERENTLY.
THE COURT: I JUST WANTED TO CORRECT A
STATEMENT I HAD MADE IN AN OFFHAND
COMMENT, THAT THAT WAS AN INCORRECT
STATEMENT. GO AHEAD.
MR. CULLENS: SO, LOOKING AT IT, LOOKING
AT THE EQUITIES INVOLVED, THE LAW
INVOLVED, RECOGNIZING IT IS NOT AN

59a
IRRELEVANT OR UNIMPORTANT FACT, MILLIMAN
IS TRYING TO ENFORCE AN ARBITRATION
PROVISION, NOT AGAINST A SIGNATORY TO
THE CONTRACT, L.A.H.C. I THINK THAT WOULD
BE A PRETTY STRAIGHTFORWARD CASE. THEY
ARE TRYING TO ENFORCE AN ARBITRATION
PROVISION AGAINST A NON-SIGNATORY TO
THE CASE; NAMELY, THE COMMISSIONER OF
INSURANCE THROUGH THE RECEIVER.
IF YOUR HONOR HAS READ TAYLOR, IN OHIO
THEY DEVELOPED A JURISPRUDENTIAL RULE
THAT SAYS UNDER THOSE CIRCUMSTANCES,
INSTEAD OF BEING A PRESUMPTION OF
ARBITRABILITY, IF YOU TRY TO ENFORCE AN
ARBITRATION PROVISION AGAINST A NONSIGNATORY, THERE IS A PRESUMPTION OF
NON-ENFORCEABILITY. WE LOOKED FOR
LOUISIANA COUNTERPART. LOUISIANA – NO
LOUISIANA CASE HAS ADDRESSED THAT ISSUE.
THEY HAVE NOT RULED ONE WAY OR THE
OTHER. IT SIMPLY HAS NOT BEEN BROUGHT
UP, BUT I WOULD RESPECTFULLY, WE WOULD
* * *
[51] THIS CLAUSE, SECTION 2004 DEALS ONLY
WITH THE VENUE FOR THOSE PROCEEDINGS.
THEY CAN GO CHASE COMPANIES OR INDIVIDUALS WHEREVER THEY WANT. AS YOU SEE,
IF YOU LOOK UNDER PARAGRAPH-B, THERE IS
A PREDICATE THERE FOR 25 PERCENT OF THE
POLICYHOLDERS AND WHERE THEY RESIDE.
THE COURT: YES, BUT IT TALKS ABOUT IN
THE PARISH. WHAT IS THE ONLY STATE THAT
HAS PARISHES? US.

60a
MR. CLARK: WHAT I MEANT THOUGH, YOUR
HONOR, WAS, IT IS DRIVEN BY NATURE OF
WHERE ARE THE INTERESTS HELD TO PURSUE
AN ORDER OF LIQUIDATION AND REHABILITATION, NOT TO PURSUE A BUSINESS CLAIM.
THE COURT: I UNDERSTAND WHAT YOU ARE
TRYING TO ARGUE. YOU ARE SAYING THIS IS
NOT — YOUR ACTION, WHERE THEY ARE
CHASING CLAIMS TO OBTAIN FUNDS FOR THE
HEALTHY REHABILITATION OF THIS IN ORDER
TO ENABLE THAT TO OCCUR DOES NOT FALL
UNDER THAT CHAPTER. IT FALLS UNDER
GENERAL CONTRACT OR TORT LAW.
MR. CLARK: EXACTLY, AND IN THAT CASE,
THE ARBITRATION CLAUSE — EXCUSE ME, THE
ARBITRATION PROVISION RECOGNITION AND
9:4201 SHOULD CONTROL THIS.
THE COURT: OKAY. THANKS.
MR. CLARK: THANK YOU, YOUR HONOR.
THE COURT: I THINK YOU AND I JUST HAVE
TO AGREE TO DISAGREE, AND UNFORTUNATELY, THE DISAGREEMENT AMONG US GOES
AGAINST YOU.
THE DISPUTE VERY DEFINITELY PRESENTS A
[52] NOVEL QUESTION, WHETHER THE COMMISSIONER AS THE REHABILITATOR IS EQUALLY
BOUND TO THE TERMS OF THE AGREEMENT
ENTERED INTO BY THE INSOLVENT INSURER
THAT HAS BEEN PLACED IN ITS CHARGE. IN
THIS CASE, THE PLAINTIFF’S CLAIMS AT LEAST
IN PART ARISE OUT OF HIS CONTRACTURAL
OBLIGATIONS SET FORTH IN A CONSULTING
SERVICES AGREEMENT. THE PLAINTIFF HAS

61a
SET FORTH SEVERAL ARGUMENTS ATTEMPTING TO EXCULPATE HIM FROM ARBITRATING
IN NEW YORK; HOWEVER, HIS ONLY PUBLIC
POLICY ARGUMENT FRANKLY IS VERY SUCCESSFUL IN DOING SO. THE PUBLIC POLICY
CONSIDERATIONS IMPLICATED HERE ARE
OVERWHELMINGLY IN FAVOR OF THE PLAINTIFF. AS A REHABILITATOR, THE COMMISSIONER HAS AN OVERRIDING DUTY TO
PROTECT OUR PUBLIC. AS NOTED IN THE
LEBLANC VERSUS BERNARD — THE COMMISSIONER’S OFFICE IS BECAUSE THE INSURANCE
INDUSTRY IS, QUOTE, AFFECTED WITH THE
PUBLIC INTEREST.
LOUISIANA R.S. 22:2, ANY DUTIES IMPOSED
UPON THAT OFFICE THEREFORE MUST BE
PERFORMED WITH THE PUBLIC INTEREST
FOREMOST IN ITS MIND. FOR THIS REASON THE
COMMISSIONER AS REHABILITATOR DOES NOT
MERELY STAND IN THE SHOES OF L.A.H.C.
DONELON’S DUTIES OWED UNDER THE R.L.C.
ARE MUCH MORE EXPANSIVE AND EXTENDS
NOT ONLY TO L.A.H.C., BUT ALSO TO THE
CITIZENS OF LOUISIANA. IT IS IMAGINABLE
THAT MANY DOMESTIC INSURANCE COMPANIES’ LOCATIONS WITHIN THE STATE HAVE
ENTERED INTO AGREEMENTS WITH THIRD
PARTIES THAT CONTAINS ARBITRATION OR [53]
FORUM SELECTION CLAUSES, AND IT WOULD
BE ABSURD TO REQUIRE DONELON TO LITIGATE ANY DISPUTE ARISING OUT OF THESE
AGREEMENTS ALL OVER THE U.S. NOT ONLY
WOULD IT STRAIN THE FINANCIAL RESOURCES
OF THE STATE, BUT IT WOULD ALSO COMPROMISE DONELON’S ABILITY TO EFFECTIVELY
EXECUTE HIS STATUTORY RESPONSIBILITIES

62a
AS REHABILITATOR. THUS, WHILE LOUISIANA’S
PUBLIC INTEREST IN ENFORCING ARBITRATION AGREEMENTS IS STRONG, DONELON’S
DUTY TO THE PUBLIC IS STRONGER.
IT SHOULD BE NOTED THAT MILLIMAN
ENTERED INTO AN AGREEMENT WITH THE
LOUISIANA INSURANCE COMPANY. IT IS CERTAINLY FORESEEABLE THAT SHOULD L.A.H.C.
GO UNDER, IT WOULD BE SUBJECT TO A
TAKEOVER BY THE INSURANCE COMMISSION.
MILLIMAN ARGUES THAT LOUISIANA R.S.
22:2004 IS PERMISSIVE AND THEREFORE
ALLOWS
FOR
ARBITRATION.
HOWEVER,
LOUISIANA R.S. 22:2004 READ IN PARI MATERIA
WITH 22:257 OF THE H.M.O. ACT SUGGESTS
OTHERWISE. ALTHOUGH THE COMMISSIONER
MAY CHOOSE THE VENUE IN WHICH TO BRING
THIS ACTION, THE ACTION MUST NONETHELESS BE BROUGHT IN A LOUISIANA STATE
COURT. IT WOULD NOT MAKE SENSE FOR THE
LEGISLATURE TO RESTRICT JURISDICTION TO
LOUISIANA ONLY FOR LIQUIDATION ACTIONS
WHILE ALLOWING REHABILITATION ACTIONS
TO BE LITIGATED ANYWHERE IN THE UNITED
STATES.
NEXT, LOUISIANA R.S. 9:4201 OF THE
LOUISIANA BINDING ARBITRATION LAW PROVIDES THAT ARBITRATION AGREEMENTS
ARE ENFORCEABLE SAVE [54] UPON SUCH
GROUNDS AS EXIST AT LAW OR IN EQUITY. IN
THIS CASE THERE ARE GROUNDS THAT EXIST
AT LAW, AND PUBLIC POLICY CONCERNS
WHICH FALL WITHIN THAT STATUTE AS THE
EXCEPTION TO A BINDING ARBITRATION
REQUIREMENT. FURTHER, THE REHABILITA-

63a
TION ORDER SPECIFICALLY EXCLUDES THE
ABILITY TO ADJUDICATE ANY ISSUE IN ANY
OTHER VENUE OTHER THAN THIS.
SO, I HAVE TO DENY THE EXCEPTION OF
LACK OF SUBJECT MATTER JURISDICTION,
AND COSTS ASSESSED FOR THIS HEARING
ONLY AGAINST MILLIMAN.
NEXT WOULD BE IMPROPER VENUE BY BUCK
CONSULTANTS, L.L.C. I WONDER HOW THAT IS
GOING TO GO. GO AHEAD.
MR. BROWN: YOUR HONOR, I WOULD BEGIN
BY POINTING OUT THAT THERE IS A DISTINCTION BETWEEN ARBITRATION AND FORUM
SELECTION.
THE COURT: THERE SURE IS.
MR. BROWN: JAMES BROWN REPRESENTING
BUCK CONSULTANTS. THE REHABILITATION
ORDER —
THE COURT: I AM SORRY, LET ME INTERRUPT
YOU. MR. CULLENS, AS YOU WON THAT, WOULD
YOU DO THE ORDER ON THAT EXCEPTION OF
LACK OF SUBJECT MATTER JURISDICTION,
PLEASE?
MR. CULLENS: YES, YOUR HONOR.
THE COURT: MAKE SURE UNDER 9.5 YOU
PROVIDE IT TO OPPOSING COUNSEL AT LEAST
FIVE DAYS PRIOR TO SUBMITTING IT TO ME.
TIME FOR THE CLOCK TO START FOR YOUR
POST-HEARING RELIEF; IN THIS CASE IT
WOULD BE A WRIT, WOULD BE THE DAY AFTER
MY SECRETARY, WHO IS A DEPUTY
* * *

